<html>
<title> - UNITED STATES COAST GUARD'S ROLE IN BORDER AND MARITIME SECURITY</title>
<body><pre>[Senate Hearing 109-718]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-718
 
    UNITED STATES COAST GUARD'S ROLE IN BORDER AND MARITIME SECURITY

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     APRIL 6, 2006--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
27-869                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                   Subcommittee on Homeland Security

                  JUDD GREGG, New Hampshire, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
TED STEVENS, Alaska                  DANIEL K. INOUYE, Hawaii
ARLEN SPECTER, Pennsylvania          PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
WAYNE ALLARD, Colorado               DIANNE FEINSTEIN, California

                           Professional Staff
                             Rebecca Davies
                              Carol Cribbs
                            Shannon O'Keefe
                             Nancy Perkins
                           Mark Van de Water
                       Charles Kieffer (Minority)
                        Chip Walgren (Minority)
                         Scott Nance (Minority)
                      Drenan E. Dudley (Minority)

                         Administrative Support

                            Christa Crawford


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Judd Gregg..........................     1
Prepared Statement of Senator Thad Cochran.......................     2
Statement of Vice Admiral Thad Allen, Chief of Staff, United 
  States Coast Guard.............................................     2
Managing Challenges in a Post 9/11 Environment...................     3
Prepared Statement of Vice Admiral Thad Allen....................     4
Statement of Senator Robert C. Byrd..............................    10
Resources Required to Secure Maritime Avenues....................    11
Funding Required to Complete Deepwater Acquisition...............    14
Cargo Inspection at Foreign Ports................................    14
Securing Waterways and Coastlines From Illegal Migration.........    15
Rapidly Declining Condition of Coast Guard Assets................    15
Coast Guard's Role in Northern Command...........................    16
Updating the Loran Navigational System...........................    18
Closing the Operational Gap for Patrol Boats.....................    19
Funding Reductions to Coast Guard's Traditional Missions.........    19
Vessel and Facility Security Plans...............................    20
Facilities Subject to MTSA/ISPS..................................    20
Maintenance for New Assets.......................................    21
Maritime Border Security Between Alaska and Asia.................    21
Patrolling the Maritime Boundary Line............................    22
Additional Committee Questions...................................    23
Questions Submitted by Senator Judd Gregg........................    23
Access to the US VISIT database..................................    23
Intelligence Reports.............................................    23
USCG's Role in Detecting and Responding to WMDs..................    24
Armed Aircraft...................................................    24
Review of Options Related to Deepwater...........................    24
Success of Deepwater Program.....................................    25
Intelligence's Role in Maritime Security.........................    25
Bandwidth Challenge..............................................    25
Intelligence Resources...........................................    26
Dubai Ports World Issue..........................................    27
Radiological Materials at Sea....................................    27
USCG's role in WMD Efforts with Other Organizations..............    27
Acceleration of Program Completion by 10 years...................    28
Expedited Procurement of Aircraft................................    28
Unique Maritime Security Capabilities............................    28
Impact of Tightening Land and Air Security.......................    28
Evidence of Entrance.............................................    28
Known Maritime Terrorist Threats.................................    29
Connection Between Migrant and Drug Smugglers and Terrorists.....    29
Security of Maritime Borders.....................................    29
Highest Maritime Risks...........................................    29
Closing the Gap: Policy Issue or Funding Issue...................    30
IC Database Access...............................................    31
USCG as the Lead in Maritime Security............................    31
Lead in Maritime Intelligence....................................    31
Overlap Issues: Interoperability or Redundancy...................    31
Maritime Borders.................................................    32
Needed Resources for Maritime Borders............................    32
USCG's Role in the Intelligence Community........................    33
Improvement of Maritime Border Security..........................    33
Potential Overlap Between FBI and USCG...........................    33
Annual Flight Hour Gap...........................................    33
Response Capabilities............................................    33
Maritime Border Security Operations..............................    34
110 Foot Patrol Boats............................................    34
Port Inspections.................................................    34
Implementation of AIS............................................    35
Maritime Border Security Operations..............................    35
Deployment of US VISIT...........................................    36
Questions Submitted by Senator Richard C. Shelby.................    37
Utilization of Fiscal Year 2006 Resources........................    37
Utilization of Resources.........................................    37
Resource Requirements............................................    37
Fiscal Year 2007 Budget Justification............................    37
Deviation From the Fiscal Year 2006 Bill.........................    38
Timeline for MPA Operations......................................    38
Timeline for Outfitting and Operation............................    38
Questions Submitted by Senator Robert C. Byrd....................    39
Maritime Patrol Aircraft.........................................    39
Expediting Full Operating Capability.............................    39
Potential Inland River Threats...................................    39
Maritime Air Patrols.............................................    39
Go-Fast boats....................................................    40
Drug Enforcement Mission.........................................    40
110 Foot Patrol Boats............................................    41
Port Security Plan Review........................................    41
Design Review of the Fast Response Cutter (FRC)..................    41
Maritime Domestic Awareness......................................    42
UAVs Along the Southern Border...................................    42
Installation of Receivers........................................    42
Questions Submitted by Senator Thad Cochran......................    43
Deepwater Recapitalization Program...............................    43
Response to Congressional Direction..............................    44
Status of HH-65 Helicopters......................................    45


    UNITED STATES COAST GUARD'S ROLE IN BORDER AND MARITIME SECURITY

                              ----------                              


                        THURSDAY, APRIL 6, 2006

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Stevens, Allard, Byrd, and Murray.


                opening statement of senator judd gregg


    Senator Gregg. We'll get started here. Senator Byrd is on 
his way. When he gets here, we'll yield to him for an opening 
comment.
    The hearing today involves the Coast Guard. We appreciate 
Admiral Allen coming by to talk to us about the status of the 
Coast Guard.
    We all admire the work of the Coast Guard. It is an agency 
which has done many wonderful things, extraordinary things in 
our national defense and in the protecting of people at risk on 
the seas; and it probably--was the one agency of the Federal 
Government--or maybe the Federal, State, and local government--
which requited itself extraordinarily well during the Katrina 
events, and, as a result, enhanced even further its reputation 
for getting things done and doing them well.
    The issue which we want to talk about today is the role of 
the Coast Guard in border security. The Coast Guard had to take 
on a large new responsibility here, as have a lot of other 
agencies in the post-9/11 world. And the question is, What does 
the Coast Guard need in order to succeed in that 
responsibility? And our view is that we should give you the 
resources you need, because you seem to handle the tasks which 
you're assigned extraordinarily well; but what we need is to 
know what those resources are.
    The problem, of course, is that, as well as having to do 
this new responsibility, you have to continue to do what has 
been your traditional role; and that has dramatically expanded 
the burden and the cost of operating the Coast Guard. How can 
we make sure that sort of tooling up and expansion is done 
without wasting money, but, rather, making sure it's 
effectively used; this is a critical issue for us as a 
committee.
    But I do want to reinforce the fact that we greatly admire 
what the Coast Guard does, and the fact that you've assumed 
this new responsibility of protecting our Nation from potential 
threat, especially coming by--over sea, in a very positive and 
constructive way.
    And, with that, should--when Senator Byrd comes, we'll take 
a break and hear his thoughts, but we should proceed with you, 
Admiral.
    Senator Cochran submitted a statement to be entered into 
the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I commend you for holding this timely hearing this 
morning. For over a week now, the members of the United States Senate 
have been debating border security and immigration reform. Despite our 
differences of opinion on immigration policy, effective border and 
maritime security are concerns shared by many.
    I look forward to hearing from Admiral Allen today, as he discusses 
the Coast Guard's important role in border and maritime security.
    I want to thank him for his service to the Gulf Coast Region as the 
Principal Federal Official overseeing the relief and recovery efforts.
    I also want to thank the entire United States Coast Guard for its 
service to the Gulf Coast Region in those most difficult first hours 
and days after Hurricane Katrina. Members of the Coast Guard valiantly 
rescued people from rooftops and cars and trees, many times in complete 
darkness. Admiral Allen, on behalf of the State of Mississippi, thank 
you for your leadership in those efforts.
    As this Committee and the full Senate begins the fiscal year 2007 
Homeland Security Appropriations process, I ask the members of this 
committee to carefully consider Admiral Allen's comments and responses 
to questions regarding Coast Guard funding and asset recapitalization.
    I look forward to working with Chairman Gregg and Senator Byrd to 
address these important national concerns.
    Thank you, Mr. Chairman.

STATEMENT OF VICE ADMIRAL THAD ALLEN, CHIEF OF STAFF, 
            UNITED STATES COAST GUARD
    Admiral Allen. Thank you, Mr. Chairman. We appreciate the 
opportunity to be here today. And it's a pleasure to discuss 
the Coast Guard's role in border security. We appreciate the 
committee's interest in border security.
    Since Alexander Hamilton called for maritime security, in 
Federalist Paper 12 in our founding, in 1790, this has been a 
primary focus of the Coast Guard, and it's part of our military 
and maritime multi-mission service and the value we've provided 
to this country for over 200 years.
    I would tell you that effective border security necessarily 
includes effective maritime border security. But we face 
considerable challenges, and we have to manage risk as we move 
forward. And, with your permission, I do have a statement for 
the record, but I'll make a few brief opening comments, and 
then go to the questions, if that's all right with you, sir.
    Senator Gregg. That would be good. We do have a vote 
scheduled at 11 o'clock. And I know Senator Byrd's going to 
want to comment and ask questions, so that would be a good way 
to approach it, I think.
    Admiral Allen. Thank you, sir.
    I might just start off by making a couple of comments.
    First of all, the maritime domain presents a fairly unique 
set of challenges, not only for the Coast Guard, but for 
everybody in the world right now. The oceans are our last 
global common. It's basically an interconnected framework of 
legal structures, with diverse uses, and, quite frankly, 
unfettered access. By ``legal structures,'' I mean structures 
that have evolved over thousands of years, concepts like right 
of innocent passage, access to ports, force majeure, and so 
forth. On the diverse uses, obviously we have trade and natural 
resources, transportation, and even recreation. And by 
``unfettered access,'' what I really mean is, we are bounded by 
our oceans, but we're really not protected by them. There are 
no bright lines in the water, like there are for our land 
borders, and access is not limited to technology. We're not 
restricted to railroads, roads, or airports to enter this world 
of work, and it makes an extremely challenging environment.
    If you look at the chart over here, sir, you look at the 
juxtaposition of the maritime border with the land border. Now, 
we've rounded out those lines to make it about a little over 
12,000 miles constituting the maritime border of this country. 
If you were actually to follow the bays and the curves and the 
Great Lakes and the rivers of this country that are navigable 
waterways, you would have about 95,000 miles.
    When we look at the risks associated with securing our 
maritime borders, there are basically three elements of risk 
that we look at, sir: threat, vulnerability, and consequence.
    On the threat side, it could be anything from a jet ski 
with an improvised explosive device to an LNG tanker. It could 
be underwater swimmers. It would be something from the land 
side, in terms of a truck- or a vehicle-borne explosive device. 
And, as we found out on 9/11, even an air event can be a 
maritime event, as we were instrumental in the response on 9/
11, and especially in evacuating the people who were trapped in 
Lower Manhattan.
    Regarding vulnerabilities, you can already see the extent 
of our coastline. Notions like freedom of navigation allow 
vessels to pass very close to our coastline without any 
requirement to notify us, and without any means for us to know 
they're there, and we're taking steps to change that.
    Regarding consequences, 95 percent of all foreign trade 
comes into this country by vessel, and constitutes $750 billion 
a year, related to the GDP. An article that ran the other day 
in the press said that if the L.A./Long Beach Port was closed 
down for any length of time, it would constitute a loss of $115 
million a day.
    Managing these challenges is one of the main duties of the 
Coast Guard in this post-9/11 environment, and we are about 
doing that.

             MANAGING CHALLENGES IN A POST 9/11 ENVIRONMENT

    Right now, we're basically breaking that task down into 
three different functional areas. One is awareness, trying to 
understand what's out there. It started right after 9/11 by 
improving our advanced notice of arrival, our awareness of 
vessels that are calling in this country. We set up a National 
Vessel Movement Center to do this. We now have requirements for 
automated identification systems for large vessels approaching 
this country. We've significantly improved our intelligence 
infrastructure with Maritime Intelligence Fusion Centers and 
Field Information Intelligence Support Teams at the port level; 
and we are partnering with the Navy.
    We're also developing a domestic international security 
regime. Most of this is pursuant to the provisions of the 
Maritime Transportation Security Act and the new International 
Ship and Port Security Code.
    And we're also trying to increase our operational presence. 
We've fielded 13 Maritime Security Safety and Security Teams. 
We have a number of new small boats out there. We have improved 
radiation detection, new patrol boats, and patrol boats that we 
got from the Navy.
    Our new Deepwater acquisition, which is attempting to 
replace our legacy assets with new, better, more effective 
platforms for our people to use, are part of this. Our 
Deepwater assets are part of a layered defense. It allows us to 
project capability far offshore to intercept, board, and defeat 
threats at the greatest distance from the United States.
    We are enhancing our communications and our sensor 
packages. It improves our ability to communicate. We now come 
up on SIPRNET chat rooms to coordinate drug seizures; where, 
before, it took us minutes, and sometimes hours, to do voice 
relays to make one of those takedowns.
    And, finally, we've approved--we've incorporated post-9/11 
requirements into our Deepwater baseline, including improved 
force protection; chemical, biological, radiological, and 
nuclear protection for our large cutters. We have an increased 
intelligence capability. And we're including airborne use of 
force in our Deepwater assets.
    However, even as we're doing this, we need to constantly 
adjust the timing and delivery of our capability to reduce 
operational gaps. And if I could point you to these two slides 
here, these are included in reports that were recently 
submitted with our budget to the Congress. We are attempting, 
at this time, to fill two gaps that are significant in our 
ability to not only defend our maritime borders, but to mount 
effective responses offshore.
    Up to the upper left is a patrol-boat gap. As you can see, 
historically, we had dropped down below that, and we have 
anticipated, through the Deepwater Project, to move to our 
baseline of 174,000 hours. Our original plan was to accelerate 
the design of the fast-response cutter. And that was based on a 
composite design. We are now having some problems with that 
design, and I think we need to look at an alternative to fill 
that gap sooner.
    In the aviation gap, the solution ultimately will be the 
CASA-235 airframe. We need to move that in as fast as we can, 
but we're also looking at a manned covert surveillance aircraft 
to help mitigate that gap. But in the long run, our new CASA 
aircraft will be the major source of those hours, sir.
    Be happy to entertain any questions at this time, sir.
    [The statement follows:]

             Prepared Statement of Vice Admiral Thad Allen

Introduction
    Good morning Mr. Chairman and distinguished members of the 
committee. It is a pleasure to be here today to discuss the Coast 
Guard's role in border security. Senator Byrd, on behalf of the entire 
Coast Guard, please accept our sincere condolences on the recent loss 
of your wife.
    Thanks in great part to the attention of this committee and the 
particular interests of Chairman Gregg and Senator Byrd, securing our 
borders has become a top priority initiative. This hearing is a 
testament to the continued priority this committee places on border 
security, and a recognition of the reality that the Coast Guard is at 
the nexus of port and border security.
Effective border security depends on maritime security
    Securing the borders of the United States is a multifaceted 
challenge ranging from the remote deserts of Arizona and the rugged 
hills of Montana to the vast expanse of ocean off American shores. As 
aggressive steps are taken undertaken to secure the land border, 
smugglers and migrants--and potentially terrorists--will undoubtedly 
look for other points of entry to exploit. Effective border security 
requires an integrated approach that crosses land, air and maritime 
domains, lest one door be closed only to open another.
    The United States is intrinsically connected to and immensely 
reliant on the oceans. The maritime domain under U.S. jurisdiction is 
larger than its total landmass, and provides the shipping lanes, 
fisheries and energy resources that sustain our Nation. The maritime 
domain is also an avenue for those wishing to smuggle people and 
illicit drugs into our communities--and an avenue that could be 
exploited as a means to smuggle weapons of mass destruction and/or 
terrorists into our country. In 2005 alone, the Coast Guard:
  --Intercepted 9,500 undocumented migrants attempting to enter the 
        United States illegally by sea, a 100 percent increase over 
        2001; and
  --Prevented more than 338,000 pounds of cocaine (an all-time maritime 
        record) and more than 10,000 pounds marijuana from reaching the 
        United States.
    The U.S. maritime domain is unique in its scope and diversity. With 
more than 350 commercial ports and 95,000 miles of coastline (including 
bays, lakes and rivers), the challenge in distinguishing between 
legitimate and illicit activity is complex to say the least. We are 
bounded by the oceans but we're not protected by them. There is no 
single fence, sensor or screening technology adequate to ensure 
maritime safety and security. The maritime domain is dynamic and 
requires an integrated, layered approach to security. This entails 
efforts across all operating areas, from ports and coastal areas to 
extended offshore operations, and must include extensive domestic and 
international partnerships.
    The thick blue line in figure 1 shows the expanse of our maritime 
borders.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The Coast Guard is the lead Federal agency for securing our maritime 
        border
    The Nation has built a Coast Guard able to operate successfully in 
this complex and unique environment. Single-purpose agencies such as 
the Revenue Cutter Service, the Lifesaving Service, and the Lighthouse 
Service have been integrated over the last century into the uniquely 
effective and efficient Service we are today. The Coast Guard you 
exercise--the Coast Guard that we have collectively built--has a 
relatively straightforward purpose: exercise authorities and deploy 
capability to guarantee the safety and security of the U.S. maritime 
domain. That is who we are, what we are charged to do, and represents 
the core character of the Service. We are military, multimission and 
maritime.
Maritime risks
    Secretary Chertoff has emphasized that the three variables of 
threat, vulnerability and consequence serve as the appropriate model 
for assessing risk and deciding on the protective measures we undertake 
as a Nation. I agree and in terms of threat, vulnerability, and 
consequence, the maritime realm presents unique challenges.
  --Threat.--While the 9/11 Commission noted the continuing threat 
        against our aviation system, it also stated that 
        ``opportunities to do harm are as great, or greater, in 
        maritime or surface transportation.'' From smuggling to piracy, 
        suicide attacks to the threat of weapons of mass destruction, 
        the threats are many and varied. Much of the current public 
        discourse focuses on container security, which is appropriate 
        given the recent headlines. However, a container is only as 
        secure as the ship and crew that carries it. In fact, the 
        greatest observed maritime threat remains smuggling. There are 
        a wide variety of maritime threat scenarios and vectors beyond 
        the confines of a single container. For example, a formal Coast 
        Guard risk assessment revealed that small boats actually pose a 
        higher risk. These small boats, traditionally used to smuggle 
        drugs and migrants, can also be used to carry out Cole-type 
        attacks on United States interests, bring in weapons of mass 
        destruction (and other types of weapons) and/or to sneak 
        terrorists into our communities.
  --Vulnerability.--Our Nation is vulnerable to seaborne infiltration. 
        There are dozens of nations in Central and South America and 
        the Caribbean close enough that maritime trafficking of 
        migrants, drugs, or other illegal commodities remains a 
        constant threat. As on land, we know that there are numerous 
        professional migrant smuggling rings that operate in the 
        maritime realm. Some operate in the Caribbean or from nations 
        further south such as Ecuador. Meanwhile, Haiti and the 
        Dominican Republic are the launching point for thousands of 
        illegal migrants each year; and Cuba, one of the designated 
        State Sponsors of Terrorism, sits just south of the Florida 
        Keys. There are no highways or deserts to cross between Cuba 
        and the United States--only 90 miles of ocean, easily crossed 
        in two hours or less in a high-powered speedboat--and we see 
        hundreds of such smuggling attempts every year. The proximity 
        of U.S. population centers to the maritime domain and the 
        diversity of maritime users present significant and wide 
        ranging vulnerabilities. Effectively addressing these 
        vulnerabilities requires maritime strategies that detect and 
        defeat threats as far from the U.S. shores as possible.
  --Consequence.--Contributing nearly $750 billion to the U.S. gross 
        domestic product annually and handling 95 percent of all 
        overseas trade each year--the value of the U.S. marine 
        transportation system and the consequence of any significant 
        attack cannot be overstated. Neither can the range of maritime 
        terrorist attack scenarios we can envision--whether it's the 
        recurring consequence of migrant and drug smuggling, to more 
        severe events such as attacks on commercial vessels or ports, 
        the infiltration of terrorists or their sympathizers into our 
        Nation, or in the worst case, delivery of weapons of mass 
        destruction into our communities. The economic consequences to 
        any disruption would be severe. A recent Congressional Budget 
        Office (CBO) study estimated the economic consequences (to 
        Gross Domestic Product (GDP)) of a one-week shutdown of a 
        single major port to be as much as $150 million per day.
    The Coast Guard has put in place a variety of systems to 
methodically assess each of these components of risk such that we can 
target resources appropriately. It is also these broad risks and the 
complexity of the global maritime environment that led the President to 
issue in September 2005 the National Strategy for Maritime Security 
(NSMS). This strategy is unprecedented in its dedicated focus on the 
maritime domain and the necessity for its global security. The NSMS 
addresses the full range of maritime threats and is not limited to 
terrorism.
Securing the Maritime Border Now and in the Future
    Leveraging its longstanding partnerships and unique maritime 
authorities and capabilities, the Coast Guard has significantly 
enhanced nationwide maritime security. Significant challenges remain 
and much more work needs to be done, but we're focused on the right 
priorities:
  --We are More Aware.--Before 9/11, we had no mandatory ship-tracking 
        requirement for large commercial vessels. Since 9/11, vessel 
        reporting requirements have been expanded, we have forged an 
        international agreement to accelerate the requirement for 
        Automatic Identification System (AIS) capability, which 
        provides real-time information on vessel positions and 
        movements, and established a National Vessel Movement Center to 
        coordinate the screening of vessel and crew arrival 
        information. The Coast Guard has also become an integrated 
        member of the intelligence community--strengthening our organic 
        capability with Maritime Intelligence Fusion Centers and Field 
        Intelligence Support Teams, while also strengthening our 
        partnership with the Office of Naval Intelligence.
  --We have Implemented a Comprehensive Domestic and International 
        Security Regime.--Before 9/11 we had no formal international or 
        domestic maritime security regime for ports, port facilities, 
        and ships with the exception of cruise ships. Partnering with 
        maritime stakeholders, we now have both a comprehensive 
        domestic security regime and an international security 
        convention in place.
  --We have a More Effective Operational Presence.--Before 9/11 we were 
        shorthanded and could not have met today's mission requirements 
        without our Reserves and Auxiliary. Since 9/11 we have:
    --Established 13 Maritime Safety and Security Teams;
    --Deployed more than 80 new small boats (RB-S) and boat crews;
    --Provided radiation detection capabilities to our boarding teams; 
            and
    --Acquired 15 Coastal Patrol Boats and accepted transfer of five 
            Navy 170-foot Patrol Crafts to increase operational 
            presence in our ports.
    Our overarching strategy is to, through a layered security 
architecture, ``push out our borders.'' Our unambiguous goal is to meet 
threats far offshore in order to avoid hostile persons, vessels or 
cargoes entering our ports or coastal regions. In the maritime realm, a 
goal line defense is no defense at all. This principle is exemplified 
daily as we intercept drug and migrant laden vessels as far away as the 
Galapagos Islands and last spring, when Coast Guard units, working with 
an interagency team, intercepted a suspect cargo ship over 900 miles 
east of Cape Hatteras, NC. In this case, the threat was determined to 
be unfounded but our ability to push the borders out is an essential 
element in protecting our homeland.
    The Coast Guard faces challenges in the maritime domain similar to 
the Border Patrol in securing the land border--with a limited set of 
resources, locate amid vast geographic areas and huge amounts of 
legitimate activity those seeking to do us harm. The phrase ``finding a 
needle in a haystack'' is an apt description of the challenge. The 
foundation of our maritime strategy relies on three key priorities:
  --Achieve Maritime Domain Awareness;
  --Establish and Lead a Maritime Security Regime; and
  --Deploy effective and integrated operational capability.
    These are not stand-alone goals, but rather part of an active 
system of layered maritime security. For example, the Maritime 
Transportation Security Act (MTSA) led to the establishment of domestic 
and international AIS carriage requirements for certain commercial 
vessels. But without investment in systems to collect, analyze and 
disseminate the AIS signals we lose the opportunity to assess threats 
early. Similarly, the detection, identification and interdiction of 
small vessels (that certainly do not advertise their position) used by 
smugglers throughout the Caribbean and Eastern Pacific requires 
persistent surveillance capabilities. In the end, Coast Guard assets 
must be capable of mounting a dependable response to identified threats 
lest we have information but not the capability to act. Put another 
way, having airborne sensors identify and track suspicious vessels is 
of little use without surface forces able to respond.
    Coast Guard assets and systems are required to operate across a 
diverse operating area including within our ports, in the littoral 
region, and far offshore. Thanks to the strong support of the 
administration, Congress and this Committee in particular, a number of 
initiatives are underway to transform Coast Guard capabilities. Several 
are worth highlighting as each will have a broad and substantial 
influence on our ability to mitigate current and future maritime risks.
    Integrated Deepwater System.--The centerpiece of the Coast Guard's 
future capability is the Integrated Deepwater System, recently revised 
to a 25-year $24 billion acquisition program and reflective of post-9/
11 mission requirements. The Integrated Deepwater System was designed 
to secure the Nation's maritime borders just as the newly-announced 
Secure Border Initiative will help deliver a system to secure the land 
borders. In the end, they will complement each other in delivering a 
comprehensive system of border security.
    A critical dimension of the Deepwater Program's assets and systems 
is their ability to fill operational gaps. As was addressed in the 
Coast Guard's operational gap analysis report submitted to Congress 
with the fiscal year 2007 budget request, the action plan to deliver 
the operational capabilities and requirements specified in the revised 
Deepwater implementation plan is a 25-year effort. This long-term plan 
requires a fine balance between removing legacy assets from service to 
realize system cost savings while maintaining sufficient system 
capacity so as to not exacerbate current operational gaps. The plan 
results in modest near-term operational hour shortfalls followed by the 
steep, long-term gains in operational capability and capacity as new 
Deepwater assets enter service in greater numbers.
  --For example, figure 2 shows the current gap in patrol boat hours; 
        it is affected most adversely by the difficulties encountered 
        in the 123-foot conversion program. Unfortunately, the 
        conversion of our legacy 110-foot patrol boats has not provided 
        the bridge to the future Fast Response Cutter (FRC) that we had 
        hoped. As a result, we have taken steps to advance the design 
        and construction of the FRC order to restore this critical 
        capacity as quickly as possible.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  --Similarly, figure 3 shows the pre-existing Maritime Patrol Aircraft 
        (MPA) gap. The revised Deepwater implementation plan strives to 
        mitigate this gap by keeping more legacy C-130H aircraft in 
        service longer while adding new Maritime Patrol Aircraft (CASA-
        235's) to the Coast Guard air fleet. Additionally, the Coast 
        Guard and Customs and Border Patrol are working together to 
        fill the gap with a manned covert surveillance aircraft 
        projected to serve as a surveillance platform in the Caribbean 
        risk vectors. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    The Coast Guard will continue to mitigate operational gaps in the 
near term, while striving for the future Deepwater fleet that will 
exceed current legacy capability and capacity. The requirements and 
capabilities reflected in the post-9/11 revised Deepwater 
implementation plan will be delivered methodically and prudently over 
the next 25 years.
    Just as important as building capacity to fill the operational gaps 
cited above is ensuring these assets are able to serve as the ``eyes 
and ears'' to allow the Nation to see, hear and communicate activity 
occurring within the maritime domain. The Coast Guard's sustained 
presence along our maritime borders is unique. More capable Deepwater 
assets, linked to each other and multiple agencies through Deepwater's 
net-centric command-and-control system will significantly improve 
information sharing, collaboration, and interoperability in the 
maritime domain.
    Vessel Tracking.--Securing our vast maritime borders requires 
improved awareness of the people, vessels and cargo approaching and 
moving throughout U.S. ports, coasts and inland waterways. The most 
pressing challenges we now face involve tracking the vast population of 
vessels operating in and around the approaches to the United States, 
and detecting and intercepting the small vessels used for migrant and 
drug smuggling, which can easily be used by terrorists seeking to do us 
harm. It is against this threat that we need to continually improve, 
and we are taking significant steps in the right direction. The Coast 
Guard needs as much information as possible about vessels operating in 
the maritime domain, particularly their location and identity, in order 
to enable effective and timely decisions and identify friend from foe. 
In support of this requirement, the Coast Guard has:
  --Established the Automatic Identification System (AIS) to provide 
        continuous, real-time information on the identity, location, 
        speed and course of vessels in ports that are equipped with AIS 
        receivers. AIS is currently operational in several major U.S. 
        ports, and the Coast Guard's Nationwide Automatic 
        Identification (NAIS) project will expand AIS capabilities to 
        ports nationwide; and
  --Initiated development of a long-range vessel tracking system to 
        receive information on vessels beyond the scope of the existing 
        and planned AIS system. Long-range vessel tracking systems are 
        designed to extend tracking capabilities up to 2000 nautical 
        miles offshore.
    Personnel Security and Credentialing.--The Coast Guard has made a 
number of critical improvements to the security and vetting procedures 
surrounding the issuance of merchant mariner documents. This effort has 
been bolstered with funding provided in fiscal year 2006 to restructure 
the merchant mariner licensing program by centralizing security and 
vetting functions in a new, enhanced National Maritime Center. Future 
efforts will focus on:
  --Working on an accelerated schedule with the Transportation Security 
        Administration to draft rules on implementing the 
        Transportation Worker Identification Credential (TWIC). 
        Enrollment in TWIC is expected to begin on September 1, 2006; 
        and
  --Continuing to explore technologies that will allow Coast Guard 
        boarding teams to access existing databases and information 
        sources such as US VISIT.
    Maritime C4ISR Enhancement.--Existing Command, Control, 
Communications, Computers, Intelligence, Surveillance and 
Reconnaissance (C4ISR) systems and operational concepts must be 
reoriented and integrated with current and emerging sensor capabilities 
and applicable procedures. Similar to the Nation's air space security 
regime, the maritime security regime must integrate existing C4ISR 
systems with new technologies and national command-and-control systems 
and processes. For example:
  --The Common Operating Picture (COP) and corresponding Command 
        Intelligence Picture (CIP) must continue to grow and expand to 
        Federal, State, and local agencies with maritime interests and 
        responsibilities. The COP provides a shared display of 
        friendly, enemy/suspect and neutral tracks on a map with 
        applicable geographically referenced overlays and data 
        enhancements. The COP is also a central element of the 
        Deepwater solution tying Deepwater assets and operational 
        commanders together with dynamic, real-time maritime domain 
        information. This link is essential to ensure effective command 
        and control of all available Coast Guard assets responding to a 
        myriad of border security threats.
  --An expansive and interoperable communications network is critical 
        for maritime security operations and safety of life at sea. In 
        the coastal environment, the Coast Guard's Rescue 21 system 
        will provide the United States with an advanced maritime 
        distress and response communications system that bridges 
        interoperability gaps, saves lives and improves maritime 
        security.
  --Hurricanes Katrina and Rita demonstrated the need for robust and 
        resilient port and coastal command and control. Through test-
        beds at command centers in Miami, FL, Charleston, SC and 
        elsewhere; and joint harbor operations centers established with 
        the U.S Navy in Hampton Roads, VA, and San Diego, CA; the power 
        of partnership, technology and co-location has been proven. The 
        Coast Guard will continue working to expand on these successes 
        and export them to other ports nationwide.
    WMD Detection and Response.--The Coast Guard is an active partner 
and ardent supporter of the Department's Domestic Nuclear Detection 
Office for their work in identifying new technologies to enhance our 
seaborne radiation detection capabilities. Similarly, many of the 
capability enhancements included in the revised Deepwater 
implementation plan are designed specifically with this threat in mind. 
We know the trauma that infiltration of WMD could cause our Nation, and 
intend to remain as vigilant as possible in preventing this from ever 
happening. Since 9/11, the Coast Guard has outfitted all of its 
boarding teams with personal radiation detectors, and we have in our 
inventory hand-held isotope detectors and other equipment that can be 
employed depending on the nature of the threat. We work closely with 
the Federal Bureau of Investigation, Customs and Border Protection, and 
the Department of Energy to respond immediately to any indications of 
radiation encountered aboard a vessel at sea or in port. Of course, 
this is really a last line of defense.
    As I mentioned in my introductory remarks, there is no single 
solution to maritime border security. It requires a layered system of 
capabilities, established competencies, clear authorities, and strong 
partnerships. The cost of allowing blind spots in our awareness, 
security regimes or operational capabilities is too high.
Conclusion
    Mr. Chairman, we can and should be proud of the positive steps 
we've taken to enhance maritime security. I credit the innovation, 
resourcefulness and devoted service of Coast Guard men and women for 
much of our progress to date. They have made tremendous strides with 
assets and systems designed for a different era. I am convinced we can 
do even better as we deliver more capable and reliable operational 
assets and systems. If we give Coast Guard men and women the training 
and equipment to do the job, they won't let us down.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    Senator Gregg. Thank you, Admiral.
    We're joined by Senator Byrd. If you would like to make an 
opening statement, and then questions, we have a vote at 11 
o'clock.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Good morning, folks. Thank you, Mr. Chairman.
    I thank our chairman for holding this hearing today. I 
would agree with him on almost anything----
    We both agree that, in order to have effective border 
security, the Department of Homeland Security should be 
focusing its resources not only on our land borders, but also 
on our relatively undefended coastlines and rivers.
    I welcome the next Commandant of the United States Coast 
Guard. And I thank him for leading the hurricane recovery 
efforts on the gulf coast. We know that, as security at our 
land borders is tightened, illegal aliens, drug runners, and 
terrorists will turn to our waterways for entry into this 
country, our homeland.
    According to Coast Guard statistics, the flow of illegal 
aliens through our waterways has more than doubled in the last 
10 years, and will continue to grow. The administration has 
concluded that international migration, quote, ``will be one of 
the most important factors affecting maritime security through 
the next 10 years, and that a significant commitment of 
security resources is necessary.''
    Now, the budget does not match this rhetoric. What is known 
as the Secure Borders Initiative is being promoted, but the 
initiative makes no mention of securing our wide-open waterways 
and coastlines from illegal migration.
    The Coast Guard is facing a crisis in its ability to 
maintain assets that perform border and maritime security 
missions. Recent budget requests by the administration have 
allowed this crisis to fester. The condition of Coast Guard 
ships and planes is declining rapidly. These assets spend more 
and more time out of service. For example, total patrol-boat 
hours in 2004 were 25 percent lower than in 1998. Current Coast 
Guard maritime patrol airplanes can only provide half of the 
hours required to meet operational commitments.
    At the same time, funding constraints require maintenance 
on these aging assets to be deferred more and more every year. 
From fiscal years 2001 to 2005, the Coast Guard deferred over 
$121 million in maintenance needed for its naval fleet and $159 
million in maintenance needed for its air assets.
    The President says that we live in a post-9/11 world. 
Frankly, the Coast Guard's fleet of ships and planes is fit for 
the last century. To properly secure the maritime domain, the 
Coast Guard needs a fleet fit for this century.
    And so, I was troubled to learn that the fiscal year 2007 
Deepwater budget is flat as far as the eye can see. Deepwater 
won't be completed until 2026--I won't be here--20 years from 
now--only in spirit. If we do not invest in the Coast Guard 
now--now--it could become the FEMA of 2010.
    Admiral Allen, my dear wife's mother was an Allen from 
Virginia. You've heard of Sidney Allen, haven't you? He shot up 
the courthouse down there, huh?
    Admiral Allen. Yes, sir.

             RESOURCES REQUIRED TO SECURE MARITIME AVENUES

    Senator Byrd. All right.
    Admiral Allen, we are here today to discuss the resource 
requirements that the Coast Guard needs to secure our maritime 
avenues. In 2004, Commandant Collins characterized the Coast 
Guard's assets as being in a declining readiness spiral.
    Your testimony on operational gaps indicates that the Coast 
Guard continues to face significant challenges. I look forward, 
with our very able chairman, to an open and frank discussion on 
the assets you need to carry out your mission as it relates to 
border and maritime security.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator.
    And I agree with the Senator from West Virginia, as I often 
do. He's very generous to me. But he's absolutely right on his 
assessment, I believe, of where the Coast Guard is. And my 
concern is the same as the Senator from West Virginia, which 
is--it doesn't appear to me that what we've got in the pipeline 
for you is what you need in order to do your job, and the 
charts sort of explain that.
    I guess my first question to you is, How much of that is a 
function of resources that you need? And how much of it is a 
function of the things like the cutter issue, which is that 
you're changing design midstream? So that even if you have the 
resources, you can't buy the ships, because you haven't decided 
what type of ship you want--or, in this case, boats--I guess 
they aren't ships. Well, they started out as boats, maybe 
they're going to turn out as ships. But, in any event--so, 
break that out for us. You've got these charts here that show 
us what we need to add in capital investment. And I look on 
capital investment as something we should be able to do around 
here fairly simply, because it's just buying things that you 
need, to make sure you can do the job right.
    So, tell us what you need in resources, on top of what is 
in the budget, as proposed, and in the supplemental, as passed, 
where you receive some additional funds--or, not as passed, but 
as it came out of committee. And then, tell us what the 
difference is between additional money and resolving some of 
these issues around what the character is of the item you're 
buying, whether you're agreeing on the type of cutter, the type 
of aircraft.
    Admiral Allen. Yes, sir.
    You characterize the problem exactly right. It's an issue 
of resources, and it is an issue of requirements. And a couple 
of things have happened simultaneously that bring us to where 
we're at today.
    As you know, the original Deepwater contract was awarded 
based on requirements that were suitable for 1998. And we know, 
in a post-9/11 environment, our cutters and aircraft have to 
operate in a much more--different area and operational threat 
environment regarding force protection, CB--chemical, 
biological, nuclear weapons, and so forth. What we have tried 
to do is rebaseline those requirements.
    I think the requirements are fixed now. We submitted a 
report last year. We certainly don't intend to have any great 
deviation from those requirements in the future. And it's more 
of an issue of how you take those requirements and build those 
in to the current plan, and have those reflected. And that's 
what's causing some of the problems. As we've gone in and asked 
for these requirements to be included in designs, that's 
created some challenges for our integrated Coast Guard systems 
partners. Most notably, we're currently looking at the fast-
response cutter composite ship that was supposed to increase 
speed, give us a stern launch boat capability, increase our 
sensors and communications capability. Those are the new 
requirements, that don't exist in our current fleet, that we 
need. However, that design that we're looking at right now has 
some issues with it, and we'll complete a review in another 3 
to 4 weeks on it.
    Notwithstanding that, there is a gap in those patrol boat 
hours. And whether it's the fast-response cutter or some other 
craft that can meet those requirements, we do need those 
resources now.
    Regarding funding, it was originally envisioned, when this 
contract was awarded, that we would be working with about $500 
million a year to source this program. We are now up close to a 
billion for the foreseeable future, so there has been an 
increase in resources provided to the program. That has allowed 
us to simultaneously bring new assets online, and also conduct 
maintenance on the older ones, especially the 210 and the 270 
fleet, which are undergoing mid-life renovations at our Coast 
Guard Yard. So, it's a matter of balancing the additional money 
against the repair of the legacy cutters, but bringing those 
new requirements in as fast as we can, sir.
    Senator Gregg. Well, how much additional money would you 
need so that we could get this done, so that Senator Byrd could 
be here in charge of launching the last ship----
    Admiral Allen. Well, I think----
    Senator Gregg [continuing]. With the Deepwater Program?
    Admiral Allen [continuing]. In the current year, sir, not a 
lot of additional money is needed. I think some key decisions 
have to be taken. And one is whether or not we're going to 
proceed on the current course with the fast-response cutter or 
go with some kind of off-the-shelf design and get something 
with the money we already have appropriated and what is planned 
and requested for 2007 on target, if you will, for the right 
platform we need.
    Senator Gregg. Well, you know, the--as Senator Byrd 
mentioned, it's going to take until 2026, I think he said, to 
build out the Deepwater Program. I mean, that just doesn't seem 
reasonable. How do we accelerate that? What do you need for 
resources to----
    Admiral Allen. Well, sir, we previously answered that 
accelerating the program would actually cut the overall cost of 
the program by a couple of billion dollars a you move it toward 
2016. That would get those resources in faster. The current 
program does what we need it to do, but it does it over a 
longer period of time. It can be shortened, and we could bring 
the assets on faster, sir.
    Senator Gregg. So, give us a number.
    Admiral Allen. I can provide it for the record, but I think 
by moving it up to around--and I would like to make sure I've 
got it right for the record, but I think by moving this 
completion up closer to 2016, you actually move the cost down 
between $1 and $1.3 billion--$1 and $3 billion, because you're 
spending the money sooner, and you're getting those assets 
online quicker, you're not involving the costs of extending 
the----
    [The information follows:]

           Funding Required to Complete Deepwater Acquisition

    A preliminary estimate of $21 billion in funding would be required 
to complete the Deepwater acquisition within the next 10 years. The 
required funding levels for fiscal year 2007 and future years are 
provided in the table below.

                          [Millions of dollars]
------------------------------------------------------------------------
                                                             Required
                       Fiscal year                            Funding
------------------------------------------------------------------------
2006 & prior............................................           3,128
2007....................................................             934
2008....................................................           1,569
2009....................................................           2,890
2010....................................................           2,440
2011....................................................           2,480
2012....................................................           2,086
2013....................................................           2,077
2014....................................................           1,999
2015....................................................             864
2016....................................................             577
                                                         ---------------
      TOTAL.............................................           1.004
------------------------------------------------------------------------


    Senator Gregg. Well, I think that's what I would like to 
do. I know it's what Senator Byrd would like to do. And if it's 
within the resources of this committee, we will do it. So, we'd 
need that number----
    Admiral Allen. Yes, sir.
    Senator Gregg [continuing]. If you can get it to us.

                   CARGO INSPECTION AT FOREIGN PORTS

    Secondly, and then I'll turn to Senator Byrd and then to 
Senator Allard, how are we doing on inspecting cargo as it 
leaves the ports around the world and heads toward us, and then 
capturing cargo before it hits us----
    Admiral Allen. Yes, sir. Well, that's----
    Senator Gregg [continuing]. That's dangerous?
    Admiral Allen. Yes, sir. As you know, the responsibility 
for that largely lies with the Customs and Border Protection 
Service, and largely through their Container Security 
Initiative, which places inspectors in foreign ports at the 
point of embarkation to make sure we know what's manifested in 
those containers. It allows us to screen the cargo and the 
other manifest data through the National Targeting Center to 
single out containers that might be of an issue. In addition to 
that, through the International Ship and Port Security Code, 
the Coast Guard are conducting assessments of foreign ports to 
make sure they're compliant with the national standards.
    Yeah, I'm sorry.
    Senator Gregg. What's your assessment of what--how we're 
doing in this exercise, in determining whether cargo headed 
towards us is safe?
    Admiral Allen. Well, I think we're doing better than we 
were, but we can do better, sir. I think the more we can put 
into the Container Security Initiative and advanced clearance 
of those manifests and dealing with the containers issue at the 
point of embarkation, the more the Coast Guard can go in and 
look at these ports and make sure they're in compliance with 
the International Ship and Port Security Code, we'll all 
enhance that now, that's all based on the resources we have 
right now. It could be accelerated, with more resources, sir.
    Senator Gregg. Senator Byrd.

        SECURING WATERWAYS AND COASTLINES FROM ILLEGAL MIGRATION

    Senator Byrd. Mr. Chairman, as I indicated in my opening 
statement, the administration is now promoting what it is 
calling the Secure Borders Initiative. However, the initiative 
makes no mention of securing our wide-open waterways and 
coastlines from illegal migration. When we strengthen security 
at the land borders, those who wish to enter this country 
illegally will pursue other entry points.
    The Coast Guard needs a 21st century fleet of ships and 
planes. Unfortunately, today the Coast Guard has a fleet fit 
for the last century. The Coast Guard's fleet of cutters is 
currently the 37th oldest of the world's 39 like-sized naval 
fleets.
    The charts in your testimony compare Coast Guard asset 
performance to a 1998 baseline. The President says that we live 
in a post-9/11 world, but the Coast Guard is measuring its 
performance against a pre-9/11 baseline.
    Admiral Allen, why are you using a pre-September 9/11 
baseline?
    Admiral Allen. Well, sir, that was the baseline when the 
contract was awarded. That was adjusted last year to reflect 
post-9/11 requirements, and that currently has been 
memorialized in the plan, as reported to Congress with our 
budget in fiscal year 2007. As I stated to the chairman, the 
challenge now is to getting those new requirements designed 
into those holes that were already scheduled to be built, so 
that we--when those hours come out there to fill that gap, 
they're more effective hours. In other words, it's not the same 
vessel that we would have bought in 1998; it's a vessel we need 
for 9/11. You're absolutely correct, sir.
    The challenge right now is to make sure those requirements, 
by a technical means, are included in the contract and then put 
into those designs so we have those platforms out in the hands 
of our people to make them more effective. And that is the 
challenge before us today, sir, and that's the one we're 
working hard on.

           RAPIDLY DECLINING CONDITION OF COAST GUARD ASSETS

    Senator Byrd. The condition of Coast Guard ships and planes 
is declining rapidly. These assets spend more and more time out 
of service. For example, total patrol boat hours in 2004 were 
25 percent lower than in 1998. Current Coast Guard maritime 
patrol airplanes can only provide half of the hours required to 
meet operational commitments. At the same time, funding 
constraints require maintenance on these aging assets to be 
deferred more and more every year.
    From fiscal years 2001 to 2005, the Coast Guard deferred 
over $121 million in maintenance needed for its naval fleet and 
$159 million in maintenance needed for its air assets. The 
Coast Guard's 110-foot patrol boats, which you use to interdict 
illegal aliens and drugs, are in a ``declining readiness 
spiral,'' according to Commandant Collins. Coast Guard patrol 
boats are operating in theater less today than they were in 
1998. Total patrol boat hours were only 75,000 in 2004, 
compared to the 1998 baseline of approximately 100,000 hours. 
Under the Deepwater plan, this gap won't be closed until 2012, 
at the earliest. The administration's National Strategy for 
Maritime Security calls for a, quote, ``significant commitment 
of security resources,'' close quote, to deal with illegal 
seaborne immigration.
    Admiral Allen, the Coast Guard is facing a crisis. The 
fiscal year 2007 budget pushes the development of the fast-
response cutter to the right. Indications are that the five 
patrol crafts that are on loan from the Navy will be returned 
in 2008. Six 110s are operating in Iraq and may not be 
returned.
    You have an opportunity at this hearing to tell us what can 
be done right now to turn this situation around if additional 
resources were to become available. Now, new 110-foot patrol 
boats help the short-term gap that you that have discussed in 
your testimony?
    Admiral Allen. Yes, sir. I agree with you completely. The 
patrol-boat gap has to be addressed. And, currently, the design 
of the FRC won't get us there on time. And, you're right, it is 
scheduled to move to the right. I think we need to address this 
near-term crisis on patrol boat hours with some unique and 
innovative thinking. I think we need to go for some kind of a 
Paracraft design or a design that can be manufactured more 
quickly and put in the hands of our people. And we fully intend 
to explore that with our integrated Coast Guard systems 
partners shortly. We should receive a complete technical 
evaluation of the design issues with the FRC sometime in the 
next 3 to 4 weeks. But it is our intent right now to proceed 
very aggressively to look at an alternative bridging craft to 
get us through this period, and get it online as fast as we 
can.
    And to the extent that there is money that is available for 
the FRC, I think that money needs to be applied to get that new 
patrol boat out there as soon as we can get it, sir.
    Senator Byrd. So, you've said sometime in the next 4 weeks.
    Admiral Allen. That's for the final technical evaluation of 
the FRC. We're not precluded, nor have we stopped going ahead 
to discuss what we might do to fill the patrol boat gap. We do 
need some kind of candidate craft that will fill that gap, sir, 
and we intend to do that.
    Senator Byrd. All right.
    Have I more time? Yes.
    I thank you. And--thank you, Mr. Chairman.
    Senator Gregg. Thank you.

                 COAST GUARD'S ROLE IN NORTHERN COMMAND

    Senator Allard.
    Senator Allard. Mr. Chairman, thank you. I find this 
hearing fascinating. It's been a few million years since we had 
a coastline in Colorado, the State I represent. But I would 
tell you that the image that I have of the Coast Guard--and I 
think most people in Colorado--is that you do a great job, and 
we appreciate your sacrifice and effort to help secure the 
borders of this country.
    I--we also have located, in Colorado, Northern Command----
    Admiral Allen. Yes, sir.
    Senator Allard [continuing]. Which is the military joint 
command to secure our country. What role does the Coast Guard 
play with Northern Command, if any?
    Admiral Allen. Well, sir, we play a significant role, but, 
I might add, before I answer, that we have some very dedicated 
Coast Guard auxiliarists and reservists that live in your State 
that----
    Senator Allard. You do.
    Admiral Allen [continuing]. Contribute greatly to the Coast 
Guard.
    Senator Allard. You----
    Admiral Allen. I'd be glad to give you a brief, at some 
time, if you'd like that, sir.
    Senator Allard. Yeah. And I think I've met some of those 
individuals. We have a few people in the Navy, too. And I 
always love to ask them if they anticipated being stationed in 
Colorado or Nebraska.
    But, no, they're great professionals.
    Admiral Allen. Yes, sir.
    Senator Allard. Yeah. Go ahead.
    Admiral Allen. Thank you.
    We have had a very close relationship with U.S. Northern 
Command since it was founded. Immediately following 9/11, as 
you remember, the homeland defense mission in this country was 
given to the Joint Forces Command, down in Norfolk. At that 
time, I was the Atlantic area commander, in command of our 
forces on 9/11, and I actually worked collaboratively with 
General Kernan and General Eberhart as they put together the 
terms of reference to actually build NORTHCOM. We detailed 
officers into the staff that actually put together the plans to 
stand it up. I provided a Coast Guard liaison officer very 
early on, and we now have Coast Guard people out there that 
jointly staff U.S. Northern Command, and we have a very good 
working relationship.
    While I was exercising my duties as principal Federal 
official for Hurricane Katrina response, I was in touch 
constantly with Admiral Keating and Lieutenant General Inge 
regarding the requirements I had down there in my dealings with 
General Honore. So, I can tell you, we have a very close 
relationship with NORTHCOM, and we certainly will continue to 
do that, sir.
    Senator Allard. Well, I'm glad to hear that. A lot of 
technology involved with Northern Command.
    Admiral Allen. Yes, sir.
    Senator Allard. A lot of it is satellite driven and 
whatnot. Do you feel that you have adequate technology there to 
work with the military in meeting your requirements, or your 
responsibilities that might be delegated through Northern 
Command?
    Admiral Allen. Well, we're--by statute, the Coast Guard has 
to be interoperable with the Navy, so, in a time of war, if we 
need to be shifted, we could. So----
    Senator Allard. Yes.
    Admiral Allen [continuing]. We do have interoperability, 
from a communications standpoint, with our DOD forces.
    One of the interesting things that the Deepwater solution 
is going to bring to the Coast Guard is some of the even 
higher-level technologies that are commonly used by DOD right 
now, and put them right on our cutters at sea out there, and 
things like SIPRNET chat rooms, ability to transfer a common 
operating picture, so you could virtually have Coast Guard 
headquarters, Northern Command, and a CO of a Coast Guard 
cutter in the Caribbean actually looking at the same screen at 
the same time, sir.
    Senator Allard. Yeah.
    Admiral Allen. And that's one of those----
    Senator Allard. Well, that----
    Admiral Allen [continuing]. The things we're really trying 
to bring onboard with the Deepwater Project.
    Senator Allard. Yeah. And I come off Armed Services 
Committee, and I know we've been working and trying to use the 
satellite system, provide that type of technology for the 
soldier on the field, as well as the boat or the ship on the 
waters.
    Admiral Allen. Absolutely, Senator.
    Senator Allard. And I think it's----
    Admiral Allen. Yes, sir.

                 UPDATING THE LORAN NAVIGATIONAL SYSTEM

    Senator Allard [continuing]. Fabulous technology, and I 
think it will help us do a good job.
    On the navigational side, we have a company in Colorado 
called Loran, which is your older navigational systems. And I 
think pretty much that sort of technology is getting outdated. 
And I think you're replacing it with a GPS system, which I 
think has to be done. But do you--do you need to keep Loran 
around for a backup system, or do you think you--the 
technology's got enough backup and--the new technological 
systems has enough backup in there that you don't need to have 
Loran anymore as a backup system? What is your thoughts on the 
technology changes that are going on navigational equipment?
    Admiral Allen. Yes, sir. And it's an excellent question.
    Our current Loran-C system has been around since the early 
1960s. Quite frankly, GPS provides superior positioning 
systems.
    Senator Allard. Sure.
    Admiral Allen. There was some residual discussion about 
whether or not the use of Loran signals to--for timing 
purposes, universal time, might have some residual value. We 
have discussed that within the interagency and the Federal 
Government, and I think the consensus is that it's time to go 
ahead and decommission the Loran system in the country. GPS 
provides an adequate navigation system in place of that.
    Sometimes it's hard to do away with those things you've 
been doing for a lot of years.
    Senator Allard. Exactly.
    Admiral Allen. I was the commanding officer of a Loran 
station in Southeast Asia right at the end of the war, but 
that's how old that technology is. And some of the stuff still 
runs on vacuum tubes. And the cost it would take to upgrade 
that technology, when there is a more effective means of 
providing navigation services, probably dictates that we not do 
that, sir.
    Senator Gregg. Senator----
    Senator Allard. Thank you, Mr. Chairman.
    Senator Gregg. Thank you. There is a vote on. Senator Byrd 
asked courtesy of being able to ask questions so he'd get 
started towards the vote. Is that all right with you, Senator 
Murray? And then we'll go to Senator Murray.
    Senator Byrd. I thank the Senator.

              CLOSING THE OPERATIONAL GAP FOR PATROL BOATS

    Senator Gregg. Go ahead.
    Senator Byrd. Quickly, thank you.
    Admiral, you have said that you are aggressively pursuing a 
new native craft to close the operational gap for patrol boats.
    Admiral Allen. Yes, sir.
    Senator Byrd. What would it cost to add additional patrol 
boats now?
    Admiral Allen. Well, I think we need to look at the current 
plan in Deepwater and how much money is available for patrol 
boats. But my guess is that we can get something down in a 
fairly affordable range working with our ICGS partners in a--
using the design that's already been proven out there. And I'm 
talking about driving this thing down to something where we can 
get a patrol boat for somewhere between $20 and $30 million, 
max.
    Senator Byrd. Thank you.
    Admiral Allen. Excuse me?
    Senator Byrd. Thank you, Admiral. We want to help.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you.
    Senator Murray.

        FUNDING REDUCTIONS TO COAST GUARD'S TRADITIONAL MISSIONS

    Senator Murray. Yes, thank you, Mr. Chairman. I know 
there's a vote on, and we need to get over to the floor, but I 
wanted to come--I was in another hearing--and just thank you, 
and all the men and women in the Coast Guard, for the 
tremendous job they've done. And your leadership has certainly 
been noted. And I know you're going to become Commandant in 
May, and you're coming at a time when we need you. And I think 
you're going to be doing an excellent job. I look forward to 
working with you on that.
    I did want to come to this committee, because I am 
concerned--and I think we all learned from Katrina, the 
tremendous multiple missions that the Coast Guard has. And I 
remain concerned that, although the Coast Guard funding looks 
pretty good in the budget, under the President's budget request 
there are more than $230 million in cuts to Coast Guard's 
traditional missions, maritime safety, including search and 
rescue, important to my end of the world, cut by $143 million; 
natural resource protection, cut by $56 million; maritime 
mobility is cut by $32 million.
    Admiral, I know this hearing is focused on border and port 
security, but if the budget doesn't provide you with proper 
funding for all your missions, we're simply asking the Coast 
Guard to do more and more with less and less. And if you could 
share with this committee, if it turns out that you need more 
funding for these traditional missions, would Homeland Security 
funds be used, or do we just do less in those mission areas?
    Admiral Allen. Thank you for the question, Senator.
    The way we portray those costs in those budget is through 
an algorithm. We take historical hours that are applied to 
missions, and then we have a way, through what we call a 
mission cost model, to actually load those hours. We actually 
keep track of every hour that an airplane, a small boat, or a 
cutter operates, and then we're able to load the costs onto 
that. And so, these are projections based on historical data, 
how we might spread the budget, as it's presented. I can tell 
you right now that we will not diminish our search-and-rescue 
readiness posture. Our field commanders are empowered out there 
to apply resources to the highest need available. And they know 
search and rescue comes first. So, while we spread these 
algorithms out for costing purposes in the budget, I can commit 
to you right now, there will be no diminution in our search-
and-rescue missions.
    Now, beyond that, our field commanders are allocated 
resources, and are given the autonomy to apply those to the 
highest need within their areas of responsibility. And you're 
very familiar with--in our 13th District, how that happens. So, 
while we project those things in the budget, that is just a 
projection, and it may not bear the exact same reality of how 
we actually execute those hours out there.
    But, overall, it's a tradeoff that our field commanders 
make. We know search and rescue's going to come right off the 
top. And so, to the extent that you're operating in a 
constrained environment, the rest of the missions are going to 
be debited somewhat to make sure you hit the top line.

                   VESSEL AND FACILITY SECURITY PLANS

    Senator Murray. Okay. And, really quickly, under the 
Maritime Transportation Security Act, Coast Guard was charged 
with ensuring the implementation of 3,500 vessel security plans 
and about 10,000 facility security plans. I did not see, in 
your written testimony, any reference to that. Can you please 
update the committee on the progress of those plans across the 
country?
    Admiral Allen. We sure can, ma'am. And I can tell you right 
now, we have about 1,200 people that are on task, both looking 
at facility plans, vessel plans, and the inspections, to make 
sure those plans are complied with, sir.
    Senator Murray. Are they being regularly reviewed, then, 
by----
    Admiral Allen. They're reviewed on an annual basis, and 
then there are spotchecks conducted.
    Senator Murray. Okay.
    I would appreciate that. And if you can give us any 
additional information, Mr. Chairman, I will submit my other 
questions for the record, as I see Senator Stevens is here, as 
well.
    But, thank you, and please pass on my thank you to the men 
and women of the Coast Guard. They do an excellent job. 
Appreciate it.
    [The information follows:]

                    Facilities Subject to MTSA/ISPS

    The Coast Guard has identified 3,064 facilities subject to MTSA/
ISPS requirements. All of these facilities have approved facility 
security plans in place and during the 2005 calendar year each facility 
was visited under the Coast Guard's annual facility security inspection 
program.
    There were 11,000 Coast Guard approved security plan submissions 
for vessels subject to MTSA/ISPS regulations. As part of annually 
required inspected vessel safety inspections, approximately 8,500 
security verification exams were conducted between July 1, 2004 and 
April 1, 2006. The Coast Guard intends to complete security 
verification exams on all MTSA regulated U.S. vessels by 31 December, 
2006.

    Admiral Allen. Thank you, ma'am.
    Senator Gregg. I'm going to head--I have to vote.
    Senator Stevens has some questions, and he'll wrap this up.
    Admiral, again, thank you. Thank you for your service. 
Thank you for the extraordinary job you did in Katrina, and 
that your team did in Katrina.
    And at some point, I'd like to get a written response as to 
whether or not we've straightened out, between you and the FBI, 
who's in charge when your SWAT teams go onto a--into a 
situation like occurred in the exercise in Connecticut.
    Admiral Allen. Yes, sir. I would just respond briefly that 
I am personally working with John Pistole, the Deputy Director 
of the FBI, and I can tell you we are much closer than what it 
would appear in the press.

                       MAINTENANCE FOR NEW ASSETS

    Senator Stevens [presiding]. Well, Admiral, I had a call 
from my staff to tell me I could call you and tell you're 
nomination is cleared. I decided to let you find it out in 
normal course, but I'm delighted we finally got those people 
straightened out that were holding up your nomination.
    I have a couple of questions. One is this. In the recent 
years, a large portion of your budget has gone to maintain 
legacy assets. And the question is, What about new assets? And 
I would like to ask you to give us a reply to this question, 
What percentage of the fiscal year 2007 Deepwater budget will 
be used for legacy asset maintenance? Is it going to continue 
to increase? is what I want to know.

            MARITIME BORDER SECURITY BETWEEN ALASKA AND ASIA

    Second--and I've talked about this before, but we have a 
very large maritime--long maritime border. We harvest 60 
percent of the fish consumed by the Americans comes from that 
area. This is an area that needs protection. And when 9/11 took 
place, the Coast Guard vessels disappeared, went down to 
protect Los Angeles and San Francisco. My people tell me that, 
while you have some assets back, the emphasis and the primary 
focus of the Coast Guard is still upon the southeast and 
southwest borders, and not upon the maritime border between 
Alaska and the nations of Asia.
    Now, what is being done to secure those borders? Are we 
going to bring some of these assets back and restore the 
patrols? Are we going to use the Predator or some means of UAVs 
for the future?
    Admiral Allen. Yes, sir. I'll start from the back and work 
forward, if I can there. As you know, we've done two Predator 
tests in Alaska in the previous two summers. We're doing 
another Predator test this coming summer; and that will be in 
conjunction with Customs and Border Protection, to see if we 
can come in alignment with the joint requirements as regards to 
unmanned aerial vehicles. So, we continue to have----
    Senator Stevens. Let me interrupt you. Those are 
dissimilar. One is onshore, the other is out there on the 
maritime border. As far as keeping the vessels that are 
invading our waters--these enormous vessels now coming in, 
harvesting the fish of the deep ocean, those are the assets 
we're interested in.
    Admiral Allen. Yes, sir. And we are, too. We feel that 
unmanned aerial vehicles are a way to give us better coverage 
up there, so we can detect those incursions. We also, as you 
know, are decommissioning the Storis and putting a 378-foot 
cutter in Kodiak, which is a much more capable platform, also 
helo capable, to be able to more effectively work the boundary 
line and also the Gulf of Alaska. It's our intent to maintain 
the commitments for the footprints we have with the cutters 
that are already up there, and sustain our presence up there, 
sir.
    Senator Stevens. All right. Well, I want you to know, I'm 
going to seek your help. I intend to go to the United Nations 
and talk to them about some way to control these marauding 
international vessels now that are fishing in the deep waters 
of the ocean. They are really vacuum cleaning the bottom, 
they're intersecting our migratory fish. And I do believe that 
it's time that we tried to get some international cooperation 
in that regard, as we did with the drift nets. Now, your agency 
was very helpful to us in identifying the drift nets when they 
came across the maritime boundary into U.S. waters. I want to 
start getting some statistics on how many of these vessels are 
coming into our waters and how long they stay in our waters. 
They're not coming to our shores. They're just coming into the 
waters, international waters on our side of the maritime 
boundary; and we believe they're intersecting our migratory 
fish, particularly the salmon.
    Admiral Allen. Yes, sir.
    Senator Stevens. We need a restoration of this--the 
security forces on that border. I think it's as important to 
the country as what you're doing with regard to individuals 
coming into the country illegally. These vessels are coming 
into areas we've declared to be the exclusive U.S. zone for 
fishing. And we need some enforcement of that zone. That's all 
there is to is.
    So, I'd look forward to working with you on it. But I would 
like to know, What will be--for the record--What will be the 
assets that are available for the maritime boundary in Alaska 
for this year?
    Admiral Allen. Yes, sir. If I could, I'd provide that for 
the record, sir.
    [The information follows:]

                 Patrolling the Maritime Boundary Line

    The following Coast Guard assets will be available for patrolling 
the maritime boundary line (MBL) in Alaska this year.
    Coast Guard assets based within Alaska:
  --High Endurance Cutters.--CGC \1\ Alex Haley (WHEC-39)
---------------------------------------------------------------------------
    \1\ CGC MUNRO is scheduled to move homeports from Alameda, CA to 
Kodiak, AK in the third quarter of fiscal year 2007.
---------------------------------------------------------------------------
  --Medium Endurance Cutters.--CGC \2\ STORIS (WMEC-36)--CGC ACUSHNET 
        (WMEC-167)
---------------------------------------------------------------------------
    \2\ CGC STORIS is scheduled to be decommissioned in fiscal year 
2007.
---------------------------------------------------------------------------
  --Number of C-130 aircraft.--4.\3\
---------------------------------------------------------------------------
    \3\ AIRSTA Kodiak remains programmed for five C-130's, but one is 
currently located in Elizabeth City, NC and being used to prototype the 
SELEX airborne radar. This fifth AIRSTA Kodiak C-130 is scheduled to 
return on or about September 2007.
---------------------------------------------------------------------------
    Coast Guard Pacific Area assets based outside of Alaska:
  --High Endurance Cutters.--10.\1\
  --Number of C-130 aircraft.--9.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Thank you very much.
    Admiral Allen. Yes, sir.
    Senator Stevens. Thank you very much.
    Admiral Allen. Yes, sir.
    Senator Stevens. Appreciate your courtesy, Admiral.
    Admiral Allen. Thank you, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Judd Gregg

                    ACCESS TO THE US VISIT DATABASE

    Question. What would it cost to make the database accessible to 
boarding teams?
    Answer. The costs are unknown at this time. As the Coast Guard 
learns more about the requirements for the US VISIT/IDENT system during 
the operational prototypes, we will have a better understanding of 
costs.
    Question. Does the Coast Guard currently have access to the US 
VISIT database?
    Answer. Yes. However, the equipment currently available is not 
designed for use in a maritime environment, thereby limiting its 
effectiveness. We are working with US VISIT program managers to improve 
the equipment.
    Question. What is needed to make the USCG's access to this system 
seamless?
    Answer. Coast Guard units conducting patrols need improved database 
connectivity and better portable equipment to use the US VISIT/IDENT 
system. We are working with US VISIT/IDENT to improve the at-sea 
connectivity and portable equipment so that Coast Guard boarding teams 
have seamless access.
    Question. Why does the USCG need access to this system?
    Answer. Currently, the Coast Guard has no electronic means of 
identifying people who are trying to illegally enter the country via 
maritime routes. Having the ability to collect biometrics and access US 
VISIT/IDENT, will enable the Coast Guard to identify and stop felons 
and potential terrorists from entering the United States.
    Question. Do the boarding teams? Why not?
    Answer. Yes, a few boarding teams are prototyping the equipment. 
There are some unique challenges for the Coast Guard in using the US 
VISIT/IDENT equipment and database. Having real-time access to the 
database requires T1 line connectivity. Coast Guard units patrolling on 
the water have limited data connectivity, making real-time access to 
the US VISIT/IDENT database challenging. Additionally, there are 
limited technologies for biometrics collection in a maritime 
environment (i.e. challenges in obtaining rugged, compact, water proof, 
transportable equipment).
    We are working with US VISIT/IDENT to resolve equipment and 
database connectivity issues.

                          INTELLIGENCE REPORTS

    Question. How does the Coast Guard share its intelligence reports 
with other parts of DHS and the rest of the Intelligence Community?
    Answer. The Coast Guard has standard connectivity through telephone 
(both classified and unclassified systems), standard Internet 
connectivity, video teleconferencing and connectivity at secured levels 
of classification. Coast Guard intelligence products are routinely 
posted and shared with other DHS and Intelligence Community members 
through these means.
    In addition, the Coast Guard is an active member of the DHS 
Information Sharing and Collaboration (ISC) Program. As a member of 
this program, we are part of the overall initiative within the 
Department that seeks to improve information sharing and collaboration 
within each of the directorates of the Department, DHS elements, across 
the cabinet level departments and agencies, and with our State, tribal, 
territorial, local and private sector partners responsible for securing 
the people and infrastructure of this country.
    Question. Do you share or post your entire reports or just their 
conclusions?
    Answer. It is common practice for the Coast Guard's Intelligence 
Coordination Center (ICC) to share intelligence reports with other DHS 
agencies and the Intelligence Community through messages and/or posting 
on a web-site, accessible through various classified systems. These 
products are generally posted in their entirety, typically including 
analysts' comments and conclusions.

            USCG'S ROLE IN DETECTING AND RESPONDING TO WMDS

    Question. What is Coast Guard's role in detecting and responding to 
WMDs?
    Answer. The Coast Guard has a non-redundant radiological and 
nuclear material detection program that is tailored for the maritime 
environment and has the ability to detect, localize, characterize and 
identify radioactive and nuclear materials at sea through the use of 
personal portable search tools.
    Alarm and detection resolution procedures include utilization of 
Customs and Border Protection's (CBP) Laboratory Scientific Services 
(LSS) and Department of Energy--Radiological Assistance Program 
regional response teams. Response to a WMD incident would be conducted 
in accordance with the National Response Plan.
    The Coast Guard works with the Domestic Nuclear Detection Office 
(DNDO) in protecting our Nation from WMDs that are radiological and 
nuclear (RadNuc). The Coast Guard is key in domestic maritime 
interception and investigation of illegal transport and usage of RadNuc 
materials. Working with DNDO and its interagency network including CBP, 
the Coast Guard plays an active role in determining appropriate action 
when a vessel with WMDs approaches the United States.

                             ARMED AIRCRAFT

    Question. When do you anticipate arming your entire fleet?
    Answer. The Coast Guard plans to modify all helicopters to support 
Airborne Use of Force (AUF) missions in a plug and play manner, 
however, not all helicopters will be actually armed at all times. To 
conserve costs, the Coast Guard intends to train and arm regional units 
which can deploy nationwide to support AUF missions in a matter of 
hours. The Coast Guard's AUF plan is planned to be fully implemented by 
fiscal year 2010.
    Question. I understand that aircraft armed with the airborne use of 
force package are 100 percent effective in stopping smuggling vessels.
    What percentage of your aircraft is currently armed?
    Answer. The percentage of currently armed Coast Guard helicopters 
is as follows:

----------------------------------------------------------------------------------------------------------------
                                                       Total        Operational        Armed        Percentage
----------------------------------------------------------------------------------------------------------------
HH-60J..........................................              41              34               9              22
HH-65...........................................              95              84  ..............  ..............
MH-68 (HITRON)..................................               8               8               8             100
                                                 ---------------------------------------------------------------
      CG TOTAL..................................             144             126              17              11
----------------------------------------------------------------------------------------------------------------

    Question. If more funds were available, could the process of arming 
the fleet be sped up?
    Answer. Yes.

                 REVIEW OF OPTIONS RELATED TO DEEPWATER

    Question. The Coast Guard is currently reviewing its options 
relative to contract renewal, competition, or in house management. 
Describe for me the advantages and disadvantages of using an 
integrator.
    Answer. The Deepwater Systems Integrator (Integrated Coast Guard 
Systems (ICGS)) provides several notable advantages relative to 
Integration, Contract Management, Private Sector Expertise, and Buying 
Power. Some examples are:
  --Integration.--A System Integrator ensures discipline by enforcing 
        commonality across the system. A review of system level 
        requirements reveals 85 percent commonality in C4ISR alone. 
        This permits all assets to share near real time information 
        through a Common Operating Picture.
  --Contract Management.--In 2003, a crisis in the safety and 
        reliability of the HH-65 required the acceleration of the HH-65 
        re-engining plan. Under expedited circumstances, ICGS obtained 
        replacement engines, installation kits, and re-engining 
        expertise that led to the first re-engine operational aircraft 
        in less than 8 months and a plan, now being executed, to re-
        engine all 84 operational aircraft by June 2007, approximately 
        2 years before the originally scheduled delivery of the first 
        MCH.
  --Private Sector Expertise.--ICGS is a partnership of Northrop 
        Grumman and Lockheed Martin. These defense industry powerhouses 
        apply both ``state-of-the-art'' and ``state of the market'' 
        (i.e. non-developmental) technological expertise to Coast Guard 
        requirements.
  --Buying Power.--ICGS can take advantage of economies of scale with 
        commonality and volume purchases of equipment and subsystems 
        across asset lines that position the Coast Guard for lower life 
        cycle operating costs due to standardization.
    A System Integrator takes a ``Top Down'' approach that leverages 
cooperation and coordination across the System of Systems, instead of 
the traditional ``Bottom Up'' approach that looks at each asset 
individually. Without a Systems Integrator, interoperability across the 
enterprise would be extremely difficult to achieve. Interoperability is 
a key foundation of the system's ability to meet mission performance 
requirements. Independent development of architecture and interfaces 
would result in assets (cutters and aircraft) that would not be able to 
effectively communicate with each other. Such an asset-centric approach 
invariably introduces increased costs and reduced efficiency.

                      SUCCESS OF DEEPWATER PROGRAM

    Question. Given some of Deepwater's design flaws, delays, mission 
requirements changes, etc., how would you rate the success of the 
Deepwater program to date?
    Answer. Overall the Deepwater Program has been successful. There 
have been some challenges that both the Prime Contractor and the Coast 
Guard have worked hard to overcome, but the successes have outweighed 
the challenges. In fact, recent GAO testimony cited the Coast Guard's 
continued improvement in the management of major acquisitions, foremost 
of which is the Deepwater Program. Visible operational successes 
include the 300 people saved by the re-engined HH-65 helicopters after 
Hurricane Katrina and the record drug seizures that were greatly 
facilitated by the C4ISR upgrades to the Coast Guard's fleet of legacy 
assets. In addition, the first Maritime Patrol aircraft just rolled off 
the production line and the first National Security Cutter, our largest 
asset, is approximately 49 percent complete and is scheduled for 
delivery in early 2008. As asset design and production timelines 
continue to advance, the successes will continue to multiply.

                INTELLIGENCE'S ROLE IN MARITIME SECURITY

    Question. What is the role of intelligence in maritime security?
    Answer. The role of intelligence in maritime security is to enhance 
Maritime Domain Awareness (MDA) and provide information on actual or 
potential threats relative to terrorism, drug trafficking, alien 
smuggling or other unlawful activity in the maritime realm.
    The Coast Guard Intelligence and Criminal Investigations program 
collects, processes and analyzes information from around the United 
States and abroad in order to provide actionable intelligence to field 
commanders and enable informed decision making by the Coast Guard and 
other government agencies.
    Program activities have been enhanced to assist in identifying 
maritime threats. These include:
  --Creation of Field Intelligence Support Teams (FISTs) in various key 
        U.S. ports;
  --Development of a Maritime Intelligence Fusion Center (MIFC) under 
        each Area Commander, to provide actionable intelligence to 
        Coast Guard operational commanders, while also sharing that 
        analysis with interagency partners;
  --Development of a joint support effort, COASTWATCH, with the Office 
        of Naval Intelligence, to screen arriving ships and crews; and
  --Permanent presence on the FBI National Joint Terrorism Task Force 
        (JTTF) and select regional JTTFs.

                          BANDWIDTH CHALLENGE

    Question. Admiral, during a recent ship visit my staff was 
impressed by the ingenuity of your staff in creating an integrated, 
interactive common operating picture. However, it seems that the crew's 
ability to access this information was limited by bandwidth.
    Is the bandwidth challenge a technical issue, a funding issue, or a 
combination of both?
    Answer. Bandwidth limitations are due to a combination of both 
funding and satellite availability. Currently, the Coast Guard uses 
commercial satellites for underway connectivity because of the limited 
availability of Department of Defense satellite bandwidth in certain 
areas of operation. Satellite technology is costly. Because of this, 
the Coast Guard closely monitors and strategically allocates available 
bandwidth to best support critical underway operations.
    Question. What would it cost to increase bandwidth and what would 
be the resultant impact on Coast Guard operations if the ships were 
equipped with greater bandwidth?
    Answer. The Coast Guard Integrated Deepwater System (IDS) C4ISR 
Implementation Plan provides for a common C4ISR design for all IDS 
assets that will improve the Coast Guard's overall Surveillance, 
Detection, Classification, and Identification capabilities. Therefore, 
full funding of the Coast Guard's fiscal year 2007 request of 
approximately $60.8 million for deepwater C4ISR upgrades is critical to 
achieving more timely information sharing between Coast Guard cutters, 
DHS, DOD and other law enforcement entities. Improved information 
sharing will improve awareness permitting more effective identification 
and prosecution of all maritime threats, as well as improving our 
overall disaster and threat response capability.

                         INTELLIGENCE RESOURCES

    Question. What are the specific resource shortfalls?
    Answer. A critical element of the assets and systems making up the 
Deepwater program is their ability to fill operational gaps. As was 
addressed in the Coast Guard's operational gap analysis report 
submitted to Congress with the fiscal year 2007 budget request, the 
action plan to deliver the operational capabilities and requirements 
specified in the revised Deepwater implementation plan is a 25-year 
effort. This long-term plan requires a fine balance between removing 
legacy assets from service to realize system cost savings, while 
maintaining sufficient system capacity to not exacerbate current 
operational gaps.
    The plan results in near-term operational hour shortfalls followed 
by the steep, long-term gains in operational capability and capacity as 
new Deepwater assets reach full follow-on production capacity. The 
current gap in patrol boat hours has been complicated by the 
unsatisfactory results of the 123-foot conversion program. 
Unfortunately, this solution of converting our legacy 110-foot patrol 
boats has not provided the bridge to the future Fast Response Cutter 
(FRC) that we had hoped. As a result, we have taken steps to advance 
the FRC by 10 years from the original plan in order to restore this 
critical capacity as quickly as possible.
    The Coast Guard will continue to mitigate operational gaps in the 
near term, while striving for the future Deepwater fleet that will 
exceed current legacy capability and capacity. The capabilities call 
forth in the post-9/11 revised Deepwater implementation plan will be 
delivered methodically and prudently over the next 25 years.
    Question. I understand that USCG is not able to act on all 
actionable intelligence because of a shortage of resources. Is this 
true?
    Answer. Given the variety of missions the Coast Guard conducts on a 
daily basis, there are periods when the Coast Guard does not have 
enough cutters and aircraft patrolling to respond to all drug and 
migrant smuggling intelligence reports.
    Question. What percentage of your actionable intelligence are you 
not able to act on?
    Answer. The Coast Guard receives numerous intelligence reports on a 
daily basis across all missions areas with varying degrees of 
reliability and credibility. For this reason, it is challenging to 
determine the percentage of actionable intelligence reports the Coast 
Guard is unable to act on. However, Coast Guard operational commanders 
use these intelligence reports daily to make risk-based decisions on 
how and where to utilize all of their assets.
    For the counter-drug mission alone, the number of actionable events 
is collected in the interagency Consolidated Counterdrug Database 
(CCDB). The CCDB information indicates that detection and monitoring 
assets (primarily Maritime Patrol Aircraft) detected 31.5 percent of 
known smuggling events in the Transit Zone between January 2000 and 
June 2005.
    Question. How do you prioritize which intelligence reports you act 
on and which you do not?
    Answer. The Coast Guard attempts to act on all tactical 
intelligence reports. However, Operational Commanders must make risk-
based decisions using their professsional judgement and considering the 
reliability of the intelligence, available assets, other missions and 
timeliness of the required response.
    Question. What activities are we not interdicting due to a lack of 
resources?
    Answer. Under the leadership of the Administration and Congress, 
the Coast Guard has significantly enhanced nationwide maritime 
security, leveraging its longstanding partnerships and unique maritime 
authorities and capabilities. However, ``you don't know what you don't 
know'' and hence challenges remain for the Nation in maritime border 
security.
    There are dozens of nations in Central and South America and the 
Caribbean close enough that maritime trafficking of migrants, drugs, or 
other illegal commodities remains a constant threat.
    As on land, we know that there are numerous professional migrant 
smuggling rings that operate in the maritime realm. Some operate in the 
Caribbean or from nations further south, such as Ecuador. Meanwhile, 
Haiti and the Dominican Republic are the launching point for thousands 
of illegal migrants each year; Cuba, one of the designated State 
Sponsors of Terrorism, sits just south of the Florida Keys. There are 
no highways or deserts to cross between Cuba and the United States--
only 90 miles of ocean, easily crossed in 2 hours aboard a high-powered 
speedboat--and we see hundreds of such smuggling attempts every year. 
The proximity of U.S. population centers to the maritime domain and the 
diversity of maritime users present significant and wide ranging 
vulnerabilities. Effectively addressing these vulnerabilities requires 
maritime strategies that detect and defeat threats as far from the U.S. 
shores as possible.

                        DUBAI PORTS WORLD ISSUE

    Question. In the wake of the Dubai Ports World issue, are you 
making any changes to the way Coast Guard intelligence is handled?
    Answer. While the Coast Guard Intelligence Program is committed to 
continuous improvement, our after-action review of the intelligence 
support provided with respect to the proposed acquisition by Dubai 
Ports World (DPW) did not indicate a need to change any significant 
aspects of our process.

                     RADIOLOGICAL MATERIALS AT SEA

    Question. What is the Coast Guard doing to locate WMDs, in 
particular radiological materials, at sea?
    Answer. The Coast Guard has the ability to detect, localize, 
characterize and identify radioactive and nuclear materials at sea 
through the use of personal portable search tools. Alarm and detection 
resolution procedures include utilization of Customs and Border 
Protection's (CBP) Laboratory Scientific Services (LSS), co-located at 
the National Targeting Center (NTC). Department of Energy--Radiological 
Assistance Program regional response teams provide 24/7 follow-on 
expert response if needed.
    The Coast Guard is working with DNDO in developing the latest 
detection equipment to improve the capability to optimally detect, 
locate, and identify radiological and nuclear (RadNuc) materials that 
may be onboard a given vessel. The Coast Guard uses its ability to 
locate RadNuc materials at sea, in conjunction with the DNDO 
interagency partners, to detect and deter the illegal usage and 
transportation of radiological material.

          USCG'S ROLE IN WMD EFFORTS WITH OTHER ORGANIZATIONS

    Question. How do the Coast Guard's WMD efforts relate to those of 
the Domestic Nuclear Detection Office? Customs and Border Patrol? The 
FBI? The Department of Energy?
    Answer. Coast Guard WMD procedures and capabilities are uniquely 
designed and intended for operating in the maritime environment; they 
were developed in close coordination with Customs and Border Protection 
to ensure complementary efforts. In addition to providing training 
assistance, the Department of Energy--Radiological Assistance Program 
regional response teams serve as the Coast Guard's 24/7 follow-on 
expert response capability if needed. Four Coast Guard Liaison Officers 
are detailed to the Domestic Nuclear Detection Office; Coast Guard 
response protocols include notification and interagency coordination 
procedures for interacting with the Federal Bureau of Investigation for 
all WMD/terrorism-related incidents.
    In addition, DNDO is assisting the USCG by looking at the 
development and testing of next generation RAD/NUC detection equipment 
and specifically looking at that equipment's potential performance in 
the maritime environment.

             ACCELERATION OF PROGRAM COMPLETION BY 10 YEARS

    Question. If funding were available to accelerate the Deepwater 
program toward a 2016, rather than 2026, completion date, how would 
Coast Guard spend those additional funds in fiscal year 2007?
    Answer. It is estimated that at least $1 billion per year would be 
needed to accelerate the program to a 2016 completion date. The 
additional funds would be allocated among the various Deepwater 
acquisitions projects to build the system in the most efficient manner 
possible. The administration does not have any specific plans for 
spending additional funds on the Deepwater program, however, and 
believes the funding level for Deepwater requested in the President's 
2007 budget represents the best acquisition strategy for the Coast 
Guard in light of competing homeland security priorities.

                   EXPEDITED PROCUREMENT OF AIRCRAFT

    Question. Could procurement of aircraft be expedited if additional 
resources were available?
    Answer. Additional aircraft could be procured if additional funds 
were available. The EADS CASA production facility has the capacity to 
build more aircraft to Coast Guard specifications.

                 UNIQUE MARITIME SECURITY CAPABILITIES

    Question. What unique maritime security capabilities does the Coast 
Guard bring to the table among Federal agencies?
    Answer. Serving as the Nation's maritime 9-1-1 emergency service, 
defender, regulator and ``cop on the beat,'' the Coast Guard is unique 
in the Federal Government. Using its Title 10 and 14 authorities, the 
Coast Guard can function in a national defense or law enforcement role.
    The Coast Guard has a vast array of highly skilled personnel, 
assets and infrastructure to leverage in maritime security. Its vessels 
range from small boats to patrol boats to large, flight-deck equipped 
cutters. Its aircraft include shipboard and land-based helicopters, as 
well as fixed-wing aircraft. It is converting many of its helicopters 
to include Airborne Use of Force (AUF) capability. The Coast Guard also 
has a robust command and control network across the Nation, ensuring 
Coast Guard units are ready to respond at a moments notice.
    The Coast Guard has also added special capabilities specifically 
for maritime security, such as Maritime Safety and Security Teams 
(MSSTs) and the Maritime Security Response Team (MSRT). Embedded within 
these deployable teams are specialized sub-capabilities, including: 
Integrated Anti-Swimmer systems; Explosive Detection Dog Teams; Close 
Quarters Combat capability; and surface interdiction capability.
    During the response to Hurricane Katrina, the Nation saw the value 
of a ready, aware and responsive Coast Guard. Rescuing more than 33,000 
people in a 2-week period, Coast Guard men and women from around the 
Nation contributed to this historic operation. Of course that was the 
most visible Coast Guard achievement in 2005; from record-breaking drug 
interdictions to continued implementation of the Maritime 
Transportation Security Act, the Coast Guard again demonstrated 
tremendous value to the Nation.
    No one can predict the timing of the next catastrophic event akin 
to Katrina, or whether it will be natural or man-made. Nonetheless, 
history tells us it will come. When it does, it will be vital that we 
have done all we can to build a Coast Guard that is prepared to answer 
the call, supremely aware of the maritime environment and poised for 
dependable response.

               IMPACT OF TIGHTENING LAND AND AIR SECURITY

    Question. What is the likely impact of tightening land and air 
security on maritime security?
    Answer. Most criminal actors, whether terrorists, smugglers or 
others, will exploit the path of least resistance. In this case, if air 
and land security are perceived by actors as more difficult to overcome 
than maritime security, they are more likely to consider and use the 
maritime domain to advance their criminal ends.

                          EVIDENCE OF ENTRANCE

    Question. Do you have any evidence that terrorists have tried or 
are currently trying to enter this country by sea?
    Answer. Yes. An unclassified example is Ahmed Ressam (AKA Bennie 
Norris the ``Millennium Plot'' bomber), who entered the United States 
on Dec. 30, 1999 via ferry from Canada. Additional examples, relating 
to known or suspected terrorists or associates of terrorists attempting 
to enter the United States by sea, can be provided in a classified 
response.

                    KNOWN MARITIME TERRORIST THREATS

    Question. Will you describe the types of known threats and targets 
that exist in the maritime domain?
    Answer. Maritime threats typically involve some type of 
exploitation of the maritime environment by terrorists, criminals, or 
other adversaries for criminal or other prohibited enterprises. 
Examples include: smuggling (all types, including black market), 
piracy, hijackings, environmental crimes, living marine resource 
exploitation, illegal seabed exploitation, etc. The threat may also 
consist solely of using maritime conveyances to transport people, 
weapons, and/or materials to a location ashore where a terrorist or 
other criminal act is planned. Maritime targets are generally people, 
conveyances, cargos, and/or critical infrastructure in or near the 
maritime realm.
    Examples of maritime terrorist threats and their targets include:
  --Bombing a passenger vessel--Superferry 14 which was bombed by 
        elements of the Abu Sayyaf Group.
  --Small boat attacks on off-shore oil facilities--Attack against Kwar 
        Al Amaya oil terminal and Al Basrah oil terminal in Iraq.
  --Small boat attacks on maritime security/naval forces--Attacks by 
        the Liberation Tigers of Tamil Eelam against Sri Lankan Navy 
        forces, attack on U.S.S. Cole, and targeting of U.S. vessels by 
        Jemaah Islamiyah in Singapore.
  --Small boat attacks on commercial vessels--Attack on the French 
        Supertanker LIMBERG.
  --Raids and kidnap for ransom operations on Island resorts--Abu 
        Sayaaf group attacks on dive resorts in Indonesia and the 
        Southern Philippines.

      CONNECTION BETWEEN MIGRANT AND DRUG SMUGGLERS AND TERRORISTS

    Question. What kinds of connections do you see between migrant and 
drug smugglers and potential terrorists?
    Answer. There are strong connections between drug smugglers and 
several South American groups currently designated as terrorist 
organizations, such as the Revolutionary Armed Forces of Columbia 
(FARC) and the United Self-Defense Forces of Columbia (AUC). There have 
also been isolated instances of individuals with potential connections 
to Islamic extremists using maritime conveyances controlled by 
traditional migrant smuggling organizations.

                      SECURITY OF MARITIME BORDERS

    Question. As you may know, I have been a strong advocate of 
tightening up our land border security so that we know who is coming 
into and leaving this country.
    What gaps do you see in the security of our maritime borders?
    Answer. Our maritime borders are vulnerable to exploitation by 
criminal or other enterprises. Examples include: smuggling (all types, 
including black market), piracy, hijackings, environmental crimes, 
living marine resource exploitation, seabed exploitation, etc.
    Intelligence gaps exist within the maritime borders. In addition to 
the obvious challenges of securing over 95,000 miles of coastline, bad 
actors have traditionally been extremely innovative in adapting their 
modes of operations in response to tightening of security within the 
land boarders. Some of the most critical maritime gaps include: 
subsequent movement of people and drugs in response to changing 
security conditions; the use of small recreational vessels for illegal 
purposes; and the dependency on self-reporting by the maritime industry 
to provide the majority of the information available on the crew and 
cargo of commercial vessel traffic.

                         HIGHEST MARITIME RISKS

    Question. What are some of the highest risks in the maritime 
domain?
    Answer. Transfer scenarios dominate the strategic terror-related 
risk map. These scenarios involve the movement of terrorist actors and/
or weapons of mass destruction though the maritime domain/across the 
maritime border by large commercial vessels or small commercial/
recreational vessels.
    The Coast Guard conducts an annual terror-related risk assessment, 
taking threat inputs from the National Intelligence Community through 
the Coast Guard Intelligence Coordination Center, target vulnerability 
and consequence data from its Maritime Security Risk Assessment Model 
(MS-RAM) and other sources. As part of this process, the Coast Guard 
identifies critical risk scenarios (in general, those involving the 
potential loss of more than 1000 lives or similar magnitude damages). 
The Coast Guard identified over thirty such scenarios, which distill to 
these nine ``meta-scenarios:''
  --Transfer of terrorists into the country via the maritime domain
  --Transfer of weapons of mass destruction into the country via the 
        maritime domain
  --``U.S.S. Cole-Style'' attacks on specific types of large vessels
  --Attacks on assets protected under other plans (dams, locks and 
        levees)
  --Aviation attacks on maritime assets (small aircraft used as a 
        weapon)
  --Stand-off weapons attacks against specific ships (anti-tank 
        missile)
  --Vehicle born improvised explosive device attacks on ``roll-on, 
        roll-off'' type ferries
  --Biological attacks (smallpox on a cruise ship)
  --Rogue ship threat against offshore petroleum terminal
    This year's assessment is ongoing. Major changes are not expected; 
transfer/exploitation scenario dominance is expected to continue.
    The Coast Guard is also about to embark on its second biennial 
National Maritime Strategic Risk Assessment cycle, addressing risk 
across the entire spectrum of Coast Guard mission performance.

            CLOSING THE GAP: POLICY ISSUE OR FUNDING ISSUE?

    Question. Is closing these gaps and addressing these risks a policy 
issue or a funding issue?
    Answer. As we have witnessed since the terrorist attacks of 9/11, 
addressing maritime security risks requires both policy and investment 
efforts.
    Border security is a national effort. The challenges of border 
security require significant policy coordination between Federal 
stakeholders, as well as meaningful and productive engagement with 
State, local and tribal authorities. Adaptive threats will invariably 
reapportion to exploit our weaknesses, necessitating holistic and well-
coordinated border security solutions. An integrated approach to policy 
and strategy will assure appropriate, balanced security risk 
management. Hard choices must be made. The choices must be informed by 
good risk management practices from objective setting, to assessment, 
to analysis of alternatives, to management selection based on expected 
risk-reduction return-on-investment, to implementation and monitoring.
    As Lead Federal Agency (LFA) for maritime homeland security, the 
Coast Guard is leveraging its relationships with other Federal, State, 
local and tribal authorities, as well as international, industry, 
academic and think-tank partners, to evolve toward a smarter, more 
coordinated approach to maritime and border security policy.
    Funding an effective maritime security strategy is also a 
significant issue. With over 12,000 miles of coastal border to secure 
and a strategic imperative to push out the border--to identify, meet 
and defeat threats as early and far away as possible--the Coast Guard 
is moving aggressively to shore up the foundations of our maritime 
strategy:
  --Achieving Maritime Domain Awareness
  --Establishing and Leading a Maritime Security Regime
  --Deploying an Effective Operational Capability
    Well-coordinated risk management policy will help ensure border 
security performance success, appropriate readiness, and responsible 
resource allocation and use.
    Question. If a funding issue, what do you need to tighten up our 
maritime borders?
    Answer. With over 12,000 miles of coastal border to secure, and a 
strategic imperative to push out the border--to identify, meet and 
defeat threats as early and far away as possible--the Coast Guard is 
moving out aggressively to shore up the foundations of our maritime 
security strategy.
    Funding at the level requested in the President's Budget will 
support major Coast Guard competency, capability, partnership and 
capacity-building initiatives. The following list illustrates major 
initiatives funded in the 2007 budget for each of the Coast Guard's 
priorities:
  --Achieving Maritime Domain Awareness
  --Maritime C4ISR Enhancement (several programs)
  --Vessel Tracking Initiatives (including Nationwide AIS)
  --Maritime Awareness Global Network
  --Counter-Intelligence program
  --Establishing and Leading a Maritime Security Regime
  --Personnel Security and Credentialing (including Transportation 
            Worker Identification Credential)
  --Maritime Transportation Security Act initiatives and programs
  --Deploying an effective operational capability
  --Integrated Deepwater System
  --Integrated Command Centers (Command 2010)
  --Specialized deployable counter-terrororism capabilities
  --Maritime Security Response Teams (MSRTs)
  --Airborne-Use-of-Force capabilities
  --Boats to meet ports, waterways, and near-coastal security demands 
            (Response Boat--Medium)

                           IC DATABASE ACCESS

    Question. Does the Coast Guard have access to all appropriate 
Intelligence Community databases, like the FBI's Guardian program, US 
VISIT, etc? If not, why?
    Answer. The Coast Guard has direct or second party access to a 
variety of law enforcement and intelligence community databases; the 
scope of Coast Guard access has been expanding in ways that improve the 
effectiveness and efficiency of our Intelligence Program.
    There are databases the Coast Guard does not have direct access to 
due to legal or policy restrictions and/or IT connectivity reasons. 
Whenever the Coast Guard identifies databases important to analysis, 
indications and warnings to which that we do not have access, we seek 
to obtain appropriate access by coordinating directly with the agencies 
managing the databases.

                 USCG AS THE LEAD IN MARITIME SECURITY

    Question. In addition to FBI, the Coast Guard works closely with 
CBP and others.
    What makes the Coast Guard best suited to be the lead Federal 
maritime agency?
    Answer. The Coast Guard is the only Federal agency focused by 
statute, regulation and longstanding policy on law enforcement and 
security operations in the maritime domain. This role is reflected in 
numerous Congressional enactments.
    As both a military Service and a Federal Law Enforcement agency, 
the Coast Guard possesses the appropriate capability, capacity, 
competencies and authorities to lead U.S. maritime security efforts. 
Additionally, the Coast Guard projects a credible presence throughout 
the maritime domain, and it has longstanding relationships with other 
Federal, State and local agencies, as well as with the maritime 
industry itself. Its position as a member of the Intelligence Community 
further adds to a unique mix of attributes that the Coast Guard brings 
to maritime security.

                     LEAD IN MARITIME INTELLIGENCE

    Question. Does Coast Guard have the lead Federal role in maritime 
intelligence?
    Answer. There has been no designation of a lead Federal role in 
maritime intelligence. The Coast Guard, Office of Naval Intelligence 
(ONI), National Counterterrorism Center (NCTC), Federal Bureau of 
Investigation (FBI), Customs and Border Protection (CBP), and many 
other departments and agencies all play important roles in the maritime 
intelligence realm.
    Together with ONI, however, the Coast Guard has been developing the 
foundation of the Global Maritime Intelligence Integration (GMII) 
capability, leveraging existing facilities and shared tools at the 
National Maritime Intelligence Center in Suitland, MD. This effort will 
lead to more collaborative efforts in maritime intelligence.

             OVERLAP ISSUES: INTEROPERABILITY OR REDUNDANCY

    Question. What areas do you see where interoperability could be 
approved or where overlap should be eliminated among Federal agencies?
    Answer. The Coast Guard regularly works with our interagency 
partners to improve interoperability and coordination. For example, two 
DHS/DOD Memorandums of Agreement (MOA) have been signed which will 
facilitate the exchange /transfer of DOD and USCG assets as appropriate 
during Maritime Homeland Defense and Maritime Homeland Security events. 
The interim Maritime Operational Threat Response (MOTR) plan also 
represents a giant leap forward, by clearly delineating 
responsibilities related to security threat response in the maritime 
domain. Codifying MOTR in its final form would permanently 
institutionalize these interoperability and coordination improvements. 
Another opportunity for improvement is in the area of integrating 
command centers, either USCG /DOD integration (e.g., Joint Harbor 
Operations Centers), or integrating various Federal and/or State/local 
agencies into Coast Guard Sector Command Centers.

                            MARITIME BORDERS

    Question. What could the Coast Guard do to tighten our maritime 
borders and better track the migration of folks into this country 
immediately?
    Answer. The U.S. Coast Guard is tasked by Executive Order 12807 to 
interdict undocumented migrants as far away from U.S. territory as 
possible. To accomplish this, the Coast Guard places assets in areas 
with historically high migration activity; primarily the Florida 
Straits, Windward Passage (between Cuba and Haiti), and the Mona 
Passage (between the Dominican Republic and Puerto Rico). Larger 
cutters capable of holding up to 300 migrants are positioned further 
away from the United States, while smaller patrol boats form a second 
tier of defense closer to shore.
    When operationally required, the Coast Guard will surge assets for 
a short duration to tighten our maritime borders. This is routinely 
done to counter and deter higher activity of migrants during seasonal 
or other fluctuations. The Coast Guard also surges resources to deter a 
mass migration when there are indications and warnings that point to 
the likelihood of such an event (e.g., in February 2005, following the 
ouster of President Aristide in Haiti). However, we can not maintain 
such a surge for an extended period without having a negative effect on 
other missions.
    Continued support for technology improvements and assets that 
improve Maritime Domain Awareness is critical for migrant interdiction 
and border enforcement. The following list provides a few examples:
    Technologies:
  --Biometrics.--The Coast Guard, in conjunction with our DHS partner 
        agencies, is pursuing biometrics capabilities to better track 
        and identify undocumented migrants interdicted at sea. However, 
        this project will take some time as it is challenging to find/
        develop a system that can both function at sea and be 
        interoperable with existing DHS and FBI systems.
  --Vessel Tracking.--The most pressing challenges we now face involve 
        tracking the vast population of vessels operating in and around 
        the approaches to the United States, and detecting and 
        intercepting the small vessels used for migrant and drug 
        smuggling, which can easily be used by terrorists seeking to do 
        us harm. The Coast Guard needs as much information as possible 
        about vessels operating in the maritime domain, particularly 
        their location and identity, in order to enable effective and 
        timely decisions and identify friend from foe.
    Assets:
  --Deepwater.--The Integrated Deepwater Program will deliver more 
        capable cutters, aircraft, and sensors to the Coast Guard that 
        can be used over a number of mission areas.
  --Integrated Command Centers.--Through test-beds at command centers 
        in Miami, FL, Charleston, SC and elsewhere; and joint harbor 
        operations centers established with the U.S. Navy in Hampton 
        Roads, VA, and San Diego, CA; the power of partnerships, 
        technology and co-location has been proven. The Coast Guard 
        will continue working to expand on these successes and export 
        them to other ports where feasible.
                 needed resources for maritime borders
    Question. What additional assets and resources would you need to 
accomplish this?
    Answer. With over 12,000 miles of coastal border to secure, and a 
strategic imperative to push out the border--to identify, meet and 
defeat threats as early and far away as possible--the Coast Guard is 
moving out aggressively to execute our maritime security strategy.
    Funding at the level requested in the President's Budget will 
support major Coast Guard competency, capability, partnership and 
capacity-building initiatives. The following list illustrates major 
initiatives funded in the 2007 budget for each of the Coast Guard's 
priorities:
  --Achieving Maritime Domain Awareness
  --Maritime C4ISR Enhancement (several programs)
  --Vessel Tracking Initiatives (including Nationwide AIS)
  --Deploying an effective operational capability
  --Integrated Deepwater System
  --Integrated Command Centers (Command 2010)
  --Continued research and expansion of biometrics capability.

               USCG'S ROLE IN THE INTELLIGENCE COMMUNITY

    Question. What is the Coast Guard's role in the Intelligence 
Community?
    Answer. The Coast Guard has been a member of the Intelligence 
Community (IC) since 2001 pursuant to the National Security Act of 
1947, as amended. The program's overall goals are to optimize organic 
Coast Guard resources and leverage other national capabilities to 
provide tailored, actionable and decisive information in furtherance of 
Coast Guard missions, and contribute to the information requirements of 
the President, the Department of Homeland Security and our partners in 
the intelligence and law enforcement communities.
    In general terms, the Coast Guard's role in the IC is to:
  --Collect, retain and disseminate foreign intelligence and 
        counterintelligence to meet homeland security objectives;
  --Provide input into the IC decision making process on collection and 
        analysis/production issues; and
  --Provide unique access to intelligence and law enforcement 
        information, and share amongst IC and law enforcement partners.

                IMPROVEMENT OF MARITIME BORDER SECURITY

    Question. Which aircraft would you choose to expedite to improve 
maritime border security and how much would that cost?
    Answer. Acquisition of CASA-235 MPA aircraft provides a rapid 
capacity and capability increase to maritime border security. The 
current cost to acquire CASA-235 aircraft is $44 million per aircraft, 
which includes missionization, initial sparing and logistics.

                 POTENTIAL OVERLAP BETWEEN FBI AND USCG

    Question. The Department of Justice Inspector General and the FBI 
seem concerned that the Coast Guard Maritime Safety and Security Teams 
(MSST) might duplicate FBI Hostage Rescue Teams and SWAT teams.
    Admiral, would you care to comment on this assertion of overlapping 
responsibilities between the Coast Guard and the FBI and the unique 
role of the Coast Guard's MSST?
    Answer. The Maritime Safety and Security Teams (MSST) were created 
following the terrorist attacks of September 11th to provide enhanced, 
tailored force packages for maritime homeland security operations, 
ranging from being the maritime ``cop on the beat'' to emergency 
response in our port and coastal regions. MSSTs periodically conduct 
local training and operations with regional Coast Guard commanders, FBI 
units and other interagency partners. They are a very flexible and 
agile force for maritime homeland security operations.
    Additionally, the Coast Guard's Maritime Security Response Team 
(MSRT) was developed with Department of Homeland Security's (DHS) 
support and oversight. This team not only meets DHS requirements as an 
interoperable unit, but also serves as a supporting unit to the 
Department of Defense for its maritime homeland defense mission and to 
the FBI for operations in the port, coastal and offshore environments. 
Using the Coast Guard's unique Title 10 and Title 14 authorities, the 
MSRT provides the Nation a robust maritime response force for maritime 
homeland defense and security missions.

                         ANNUAL FLIGHT HOUR GAP

    Question. How do you plan to address the 17,000 to 27,000 annual 
flight hour gap over the next 9 years?
    Answer. As always, the Coast Guard will carefully assess and manage 
risk to employ available air assets to the highest mission priorities. 
Your full support of the President's fiscal year 2007 budget request 
which funds the purchase of the sixth CASA MPA aircraft and the 
missionization of MPAs 4, 5, and 6 is critical to filling the MPA gap 
as soon as possible. Once operational, these aircraft will each 
contribute 1,200 annual MPA flight hours. Additionally, the pending 
procurement of up to 3 Manned Covert Surveillance aircraft as provided 
in fiscal year 2005 and fiscal year 2006 appropriations will provide 
additional needed MPA hours to apply toward this gap.

                         RESPONSE CAPABILITIES

    Question. Do you have enough cutters and aircraft to respond to all 
intelligence reports of drug trafficking or illegal migrant activity in 
the maritime regions?
    Answer. Given the competing priorities of mission demands on the 
Coast Guard's daily operations, there will always be periods when the 
Coast Guard does not have enough cutters and aircraft patrolling to 
respond to all drug and migrant smuggling intelligence reports.

                  MARITIME BORDER SECURITY OPERATIONS

    Question. How will the significant lack of patrol boats affect 
maritime border security operations?
    Answer. Maritime border security is conducted everyday by our 
cutters, boats and aircraft deployed in ports, coastal zones and on the 
high sea. One element of overall service efforts, patrol boats serve as 
the ``cops on the beat'' within the maritime domain.
    As you know, the Coast Guard has identified a capacity gap within 
our patrol boat fleet. As this gap is filled through our existing plans 
and the implementation of Deepwater, additional capacity will be added 
and deployed, improving our presence and providing additional 
capabilities. Until that time we will make the best use of our existing 
patrol boat fleet, along with major cutters and boats, to maximize our 
patrol efforts.
    Question. If additional funds were available to address this gap, 
how would you use those funds?
    Answer. If additional funds were available to address the patrol 
boat gap the Coast Guard could use it to accelerate acquisition of new 
patrol boats. We have issued a Request for Information (RFI) from 
industry to see what existing proven Commercial Off the Shelf (COTS) 
patrol boats designs are available to meet our patrol boat needs, and 
anticipate spending a portion of unobligated partol boat appropriations 
on acquiring some of these vessels. We expect to receive responses to 
this RFI by mid May 2006.

                         110 FOOT PATROL BOATS

    Question. Would it make any sense to buy more 110 foot patrol boats 
since you already have a good working design, especially if there are 
questions about the FRC design?
    Answer. Acquiring additional 110 foot WPB's would not meet the full 
range of current operational requirements. While the 110 foot WPB has 
been a successful asset, it does not possess the space to provide a 
robust C4ISR suite. The small boat launch and recovery system is labor 
intensive and the small boat does not meet current operational 
requirements. A Request for Information (RFI) has been issued to 
evaluate commercially available patrol boat platforms. This information 
would determine if other existing patrol boat designs could meet 
current operational requirements.

                            PORT INSPECTIONS

    Question. The Coast Guard is currently on target to inspect foreign 
ports every 4 years.
    Is that time cycle appropriate?
    Answer. The Coast Guard visits countries to ascertain whether the 
country is maintaining effective anti-terrorism measures in its ports. 
The current pace of country visits is consistent with the Maritime 
Transportation Security Act and current funding levels.
    Question. How do you determine which ports you inspect on any given 
year?
    Answer. The Coast Guard prioritized all countries with which it 
trades with to determine the general order in which countries should be 
visited. The prioritization was based on the amount of maritime trade 
the U.S. conducts with the country and the general maritime security 
situation regarding the country. When determining the ports to visit 
within a country, the Coast Guard attempts to view a representative 
sample including small, medium and large ports; ports that conduct 
substantial trade with the United States; and ports with a variety of 
activities (e.g., container, liquid bulk, dry bulk, passenger, and 
general cargo).
    Question. What role does intelligence play in your port 
inspections?
    Answer. Coast Guard inspections in the ports are done for a number 
of different reasons related to the maritime safety, security, and/or 
environmental protection. Inspections involving a security purpose may 
be based in whole or in part on information provided by the Coast Guard 
Intelligence Program. Moreover, intelligence generally informs the 
situational awareness of all Coast Guard personnel conducting 
inspections, patrols or other activities in port areas.
    Coast Guard Intelligence conducts Port Threat Assessments (PTA). 
PTAs provide the local Sector Commander threat analyses for the 
Nation's military and economic strategic ports compiled from foreign, 
national and local intelligence reporting and from law enforcement 
information, incorporating everything from criminal enterprises to 
environmental activists and extremist/terrorist-related activity.
    PTAs involve a qualitative evaluation of classified intelligence 
reports, interviews with Federal and local law enforcement officials, 
and interviews with private sector security managers. Threat analyses 
are based on a compilation of national and domestic security 
intelligence along with criminal database information.
    PTAs are prepared by the Coast Guard's Intelligence Coordination 
Center (ICC). They are the most complete and up-to-date local domestic 
port threat assessments available to field commanders for use in 
critical planning and resource allocation. We utilize open source 
material, as well as classified information provided by the Coast 
Guard's Intelligence Coordination Center and the Area Intelligence 
staffs, to assist with the prioritization of port selections. In 
addition to assisting in the prioritization, this information helps to 
identify security issues for which to be alert when conducting port 
visits. It also provides situational awareness to help maintain 
personnel safety.

                         IMPLEMENTATION OF AIS

    Question. The testimony States that AIS has been implemented at 
several major ports.
    What is your timeframe to expand AIS nationwide?
    Answer. The Nationwide Automatic Identification System (NAIS) 
project is pursuing a three increment implementation approach so 
maritime security stakeholders will begin receiving useful capability 
to fill in current operational gaps as quickly as possible.
    Upon DHS approval of Milestone Two, targeted for 4th Quarter, 
fiscal year 2006, the first increment will capitalize on existing 
preliminary and prototype efforts installed in 2005 and 2006 to expand 
receive only AIS capability (vessel tracking) in all critical ports 
identified in the fiscal year 2007 budget justification.
    The current estimated schedule [Initial Operating Capability (IOC) 
and Full Operating Capability (FOC) dates] for implementation of the 
individual increments is as follows:

----------------------------------------------------------------------------------------------------------------
              Increment                           1                        2                        3
----------------------------------------------------------------------------------------------------------------
Description..........................  receive only at          receive and transmit     long-range receive
                                        critical ports and       nationwide.
                                        coastal areas.
IOC..................................  1st Quarter, fiscal      4th Quarter, fiscal      1st Quarter, fiscal
                                        year 2007.               year 2009.               year 2010
FOC..................................  4th Quarter, fiscal      4th Quarter, fiscal      4th Quarter, fiscal
                                        year 2007.               year 2013.               year 2013
----------------------------------------------------------------------------------------------------------------

    Question. What resources are required to fully implement this 
system?
    Answer. The total Acquisition, Construction and Improvement (AC&I) 
cost estimate for Nationwide Automatic Identification System (NAIS), as 
reported in the fiscal year 2007 to 2011 Five-Year Capital Investment 
Plan is $196,200,000.

                  MARITIME BORDER SECURITY OPERATIONS

    Question. Patrol boats are an integral part of the Coast Guard's 
fleet and are critical to maritime border security. USCG is currently 
short several boats, due to the Iraq mission and 123-conversion 
problems and may be plagued with further shortfalls if the rumors are 
true and the Navy asks for its 5 Patrol Coastal craft back in 2008 and 
if the FRC is further delayed. USCG is already operating with fewer 
patrol boat hours than it had in 1998, and at about half the number of 
hours called for by the Deepwater Plan to meet the mission 
requirements.
    How does the USCG plan to address this shortfall?
    Answer. The USCG plans to address this shortfall through continued 
negotiations with the Navy in an effort to extend the current WPC-179 
Memorandum of Agreement (MOA) beyond fiscal year 2008. If agreed upon 
with the current number of PC-179s, this would reduce the patrol boat 
hour gap by 12,500 hours per year.
    Also, when the six 110 foot WPBs serving in southwest Asia in 
Operation Iraqi Freedom are returned to the continental United States, 
they will provide an additional 12,000 patrol boat hours per year.
    The Coast Guard has submitted an Industry Request for Information 
for proven patrol boat designs. Once the responses to this request are 
received in May 2006, we will consider this information for a risk 
mitigator to filling our patrol boat gap.
    Accelerated schedule for implementing TWIC
    Question. The testimony States that you are working with the 
Transportation Security Administration (TSA) on an accelerated schedule 
for implementing the Transportation Worker Identification Credential 
(TWIC). As you know, this Committee has supported the TWIC program but 
has been frustrated by implementation delays.
    After years of delay, when do you expect that this program will be 
ready for implementation?
    Answer. The Transportation Worker Identification Credential (TWIC) 
is a top Departmental priority, and I have directed my team to move 
forward with the program as quickly as possible. The Transportation 
Security Administration (TSA) recently published a ``request for 
qualifications'' seeking firms who are appropriately experienced and 
interested to help deploy certain components of the TWIC program. This 
is a first step toward operational deployment of the TWIC program that 
will require workers with unescorted access to U.S. port facilities and 
vessels to undergo security threat assessments and obtain a biometric 
TWIC credential. This deployment will follow completion of an 
accelerated rulemaking conducted jointly by TSA and Coast Guard.
    Question. What is the Coast Guard's role in this program?
    Answer. The Transportation Security Administration and the United 
States Coast Guard (USCG) are cooperating in a joint rulemaking that 
requires all workers requiring unescorted access to secure areas of 
Maritime Transportation Security Act (MTSA) regulated facilities and 
vessels to apply for and obtain a Transportation Worker Identification 
Credential.
    The USCG would be responsible for enforcing this proposed rule at 
the MTSA regulated facilities and vessels.

                         DEPLOYMENT OF US VISIT

    Question. Why is only one maritime port equipped to handle exits?
    Answer. US VISIT's biometric exit process is at 2 seaports: San 
Pedro and Long Beach terminals in Los Angeles, California; and Miami, 
Florida. These seaports were part of the pilot program for the exit 
solution. Upon approval to proceed with the national deployment of the 
Exit Solution, US VISIT will deploy at all remaining ports where US 
VISIT is currently operating for entry (excluding preclearance 
operations at foreign airports).
    Question. Which kinds of maritime ports are currently subject to US 
VISIT? Cruise ship ports? Fishing ports? Ferry ports? Yachting ports?
    Answer. Under the law, all sea ports are subject to US VISIT. 
However, several issues pose challenges to the deployment of US VISIT 
at all sea ports of entry. Unlike airports, there are no regulatory 
requirements for a Federal Inspection Services (FIS) inspection area 
for sea ports of entry. Additionally, a number of ports lack 
connectivity necessary for accessing government databases. Therefore, 
we are currently only deployed at those cruise ports and ferry 
terminals that been upgraded to include an FIS area.
    For those terminals not covered by US VISIT, Customs and Border 
Protection officers will board the ship and conduct an inspection 
onboard. US VISIT, in conjunction with Customs and Border Protection, 
is exploring the use of new mobile devices that could perform the 
biometric and documentation screening functions. Subject to funding, US 
VISIT plans to use these devices to expand coverage to the cargo crew 
population
    There are a number of small, private and community seaports 
(yachting) where US VISIT is not in operation. These smaller ports do 
not have pre-existing infrastructure to support the technology 
necessary to conduct biometric entry processes in the same manner as is 
now done at the cruise terminals. US VISIT believes any mobile devices 
developed for the larger sea ports of entry could also be used in these 
smaller seaports.
    Question. I understand that US VISIT is deployed in several ports 
of entry and only one exit port. What percentage of maritime ports is 
currently covered in the program?
    Answer. US VISIT's biometric entry process is at 13 sea ports of 
entry, including: Galveston, Texas; San Pedro/Long Beach, California; 
Miami, Florida; Port Canaveral, Florida; San Juan, Puerto Rico; Seattle 
(2 terminals), Washington; Tampa, Florida; Vancouver, Canada; Victoria, 
Canada; West Palm Beach, Florida; Port Everglades, Florida; New York 
City Seaport, New York; and Port Canaveral (2 terminals), Florida. 
There are 64 sea ports of entry, and US VISIT entry procedures covers 
20 percent of those ports.
    US VISIT's biometric exit process is at 2 sea ports of entry: San 
Pedro/Long Beach terminals in Los Angeles, California; and Miami, 
Florida. There are 64 sea ports of entry, and US VISIT exit procedures 
covers 3 percent of those ports. For further statistics on volume and 
types of ports (cruise vs. cargo), please consult Customs and Border 
Protection.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby


               UTILIZATION OF FISCAL YEAR 2006 RESOURCES

    Question. Specifically, how you, and the Deepwater Contractor 
intend to utilize the fiscal year 2006 funding?
    Answer. The $68 million appropriated in fiscal year 2006 will be 
utilized to procure two aircraft (aircraft number 4 and 5) and 
missionization and logistics required to place the aircraft in a 
``mission ready'' status.

                        UTILIZATION OF RESOURCES

    Question. If the funds will not be dedicated to the acquisition of 
the fourth and fifth MPA, why not?
    Answer. The fiscal year 2006 funds will be dedicated to the 
acquisition of the fourth and fifth MPA.

                         RESOURCE REQUIREMENTS

    Question. The President's fiscal year 2007 budget continues funding 
for the important Integrated Deepwater Systems program to update the 
operational ability of the United States Coast Guard. This essential 
program will bring the Coast Guard's capabilities in line with 21st 
century technology and equip the Coast Guard with the necessary tools 
to protect our Nation's coast line and shipping channels.
    My question is whether this year's funding request by the President 
is sufficient to carry out this retooling and refitting in a timely 
manner.
    Answer. The fiscal year 2007 budget request of $934 million 
represents a nearly 25 percent increase from fiscal year 2005. It is 
consistent with the $24 billion/25-year implementation plan presented 
in the revised implementation plan report submitted to Congress.
    Question. Does Congress need to accelerate the funding of Deepwater 
to accomplish its mission sooner?
    Answer. The administration believes the funding level for Deepwater 
requested in the President's 2007 budget represents the best 
acquisition strategy for the Coast Guard in light of competing homeland 
security priorities. Furthermore, GAO and other studies and have shown 
that accelerated funding for an acquisition project as large and 
complex as Deepwater will generate only marginally better results 
relative to the significant additional costs of acceleration.
    Question. Specifically within the Deepwater program is the CASA CN-
235 300M, Maritime Patrol Aircraft. This plane is a crucial piece of 
the Coast Guard's overall mission. It will bring state-of-the-art 
technology to any aerial mission the Coast Guard undertakes. The 
communications, navigational and surveillance capabilities of this 
plane will allow the Coast Guard to monitor high interest vessels, 
locate distressed mariners, interdict drug traffickers, and monitor 
environmental disturbances as well as a host of other tactically 
important situations.
    Seeing the critical nature of this aircraft, is the Coast Guard 
being sufficiently funded to get this plane missionized and ready for 
operation?
    Answer. Yes. The Deepwater fiscal year 2007 Plan Update provided to 
Congress balances several important considerations, including current 
priorities and operating expenses to employ these assets when 
delivered. To ensure the aircraft are ``ready for operations,'' factors 
such as time to train the flight crews and maintenance personnel, as 
well as to prepare the air stations to host the aircraft when they 
arrive must be addressed. The plan provides the funds to be ``ready for 
operations' in the most effective manner.

                 FISCAL YEAR 2007 BUDGET JUSTIFICATION

    Question. In fiscal year 2006, the Coast Guard was appropriated $68 
million for the acquisition of two additional aircraft for a total of 
five. However, I am now hearing that these funds may be used for the 
acquisition of one aircraft, rather than two, with the additional funds 
to be used for spare parts and other missionization requirements. I am 
concerned about this change in direction, particularly given that the 
fiscal year 2007 budget requests funding for one plane as well as 
funding for spare parts and other missionization requirements for the 
previously acquired aircraft.
    Therefore, the purchase of only one plane with the fiscal year 2006 
funding seems inconsistent with the fiscal year 2007 budget 
justification.
    Answer. The $68 million appropriated in fiscal year 2006 will be 
utilized to procure two aircraft (aircraft numbers four and five) and 
one mission system. Since this appropriation did not include the spare 
parts essential for safe and efficient operation of an MPA fleet, the 
$77.7 million requested in fiscal year 2007 will support the 
procurement of spares for six aircraft, mission system for the fifth 
aircraft, and a sixth aircraft with mission system. The funding 
requested in fiscal year 2007 complements the funds appropriated in 
fiscal year 2006, ensuring we will have six ``ready-to-fly'' aircraft.

                DEVIATION FROM THE FISCAL YEAR 2006 BILL

    Question. Could you explain for me the deviation from the fiscal 
year 2006 bill for the acquisition of two planes?
    Answer. The Coast Guard intends to procure two Martime Patrol 
Aircraft with fiscal year 2006 funds, which does not deviate from the 
intent of the 2006 appropriation.

                      TIMELINE FOR MPA OPERATIONS

    Question. Following on that line of questions, when should we 
expect the full compliment of aircraft to be under contract?
    Answer. We expect to have aircraft four and five on contract by the 
end of fiscal year 2006.
    Question. When should we expect the first MPA to be operational?
    Answer. The first MPA should be operational in early 2007 (calendar 
year). This initial aircraft will be assigned to Aviation Training 
Center Mobile in order for Coast Guard personnel to become familiar 
with the aircraft, develop and refine training curriculum, and 
establish the CASA MPA Training Branch in preparation for training 
future CASA MPA aircrews.
    Question. Is there a timetable for the additional four aircraft to 
be fully missionized and operational?
    Answer. The planned schedule for CASA MPA aircraft availability is:
  --Aircraft #1 Delivery (missionized)--2nd QTR fiscal year 2007
  --Aircraft #2 Delivery (missionized)--3rd QTR fiscal year 2007
  --Aircraft #3 Delivery (missionized)--4th QTR fiscal year 2007
  --Aircraft #4 Delivery (not yet on contract)--3rd QTR fiscal year 
        2008
  --Aircraft #5 Delivery (not yet on contract )--4th QTR fiscal year 
        2008
  --Aircraft #6 Delivery (not yet funded)--2nd QTR fiscal year 2009.

                 TIMELINE FOR OUTFITTING AND OPERATION

    Question. If the CASA CN-235 300M is so crucial to the Coast 
Guard's mission is the timeline for its outfitting and operation 
adequate for your needs?
    Answer. Coast Guard mission execution is dependent on adequate MPA 
hours to cue end-game prosecution. As a result, the current MPA hour 
shortfall (between hours available and hours needed to satisfy mission 
requirements) is of key concern and will remain a focus of our 
recapitalization priorities. The CASA CN-235 300M replaces existing 
assets, provides the needed MPA capability, and is being implemented on 
a timeline consistent with the Revised Deepwater Implementation Plan.
    Question. Does the Coast Guard need this aircraft sooner?
    Answer. The revised Deepwater implementation plan reflected in the 
President's fiscal year 2007 Budget Request reflects the best balance 
of capital asset acquisition within available resources.
    Question. Is the funding laid out in this plan satisfactory for the 
operational needs of the Coast Guard?
    Answer. The funding stream supporting the current implementation 
plan will deliver the Deepwater ``system'' of assets and capabilities 
by 2027. When complete, it will satisfy the totality of current and 
reasonably foreseen operational needs. Until that time, the Coast Guard 
will continue optimizing available resources to recapitalize and 
modernize its fleet as quickly as possible, while avoiding degradation 
to mission performance.
    Question. Should this timeline be accelerated to properly ensure 
the security of our critical shores and waterways for the safety of 
commerce and the protection of our citizens well being?
    Answer. Our strategic goal and imperative, as outlined in the 
President's National Strategy for Homeland Security, is to detect, 
identify and intercept threats as far from the U.S. homeland as 
possible. In the maritime domain, the Coast Guard's Deepwater assets 
and capabilities are a critical centerpiece of that effort. With the 
post-9/11 revised implementation plan, the Deepwater acquisition will 
deliver a system of maritime capabilities much better suited to the 
current and future threat environment. The revised implementation plan 
will deliver that system by the year 2027 based on current funding 
levels.
    The administration believes the funding level for Deepwater 
requested in the President's 2007 budget represents the best 
acquisition strategy for the Coast Guard in light of competing homeland 
security priorities. Furthermore, numerous studies and have shown that 
accelerated funding for an acquisition project as large and complex as 
Deepwater will generate only marginally better results relative to the 
significant additional costs of acceleration.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                        MARITIME PATROL AIRCRAFT

    Question. Would additional maritime patrol aircraft improve your 
detection capacity in the transit zone?
    Answer. Yes, Maritime Patrol Aircraft are critical to successful 
counter-drug operations.

                  EXPEDITING FULL OPERATING CAPABILITY

    Question. Could you reach full operating capability faster if 
additional resources became available?
    Answer. The fiscal year 2007 request reflects the project's funding 
needs for the current acquisition phase. Once the Nationwide Automatic 
Identification System (NAIS) project transitions to the production 
phase, the project will pursue deployment and funding strategies to 
implement AIS capability, as quickly as possible, consistent with 
service priorities across all capital acquisitions projects.

                     POTENTIAL INLAND RIVER THREATS

    Question. The Port of Huntington in West Virginia is the largest 
inland river port in the United States and the 6th largest of all U.S. 
Seaports in terms of tonnage. Fifty percent of all cargo types entering 
the port are hazardous and there are hundreds of chemical, energy, and 
other critical infrastructure facilities along the waterways. The 
Mississippi River system extends well into the interior of the United 
States and potentially could provide access for someone wishing to 
threaten a city or facility that lies on the waterway.
    What capabilities does the Coast Guard have to track the movement 
of people and cargo and to detect or deter potential threats on the 
inland rivers system?
    Answer. The Coast Guard's Inland Rivers Vessel Movement Center 
(IRVMC) in Huntington, WV, was established to track the movement of 
barges carrying Certain Dangerous Cargoes (CDC) through High Density 
Population Areas (HDPAs) of 100,000 or more people. Twenty HDPAs and 
over 3,000 miles of navigable rivers are monitored by IRVMC. In 
addition, the Vessel Traffic System (VTS) in Louisville, KY also 
provides vessel tracking capability.
    Threat detection and deterrence activities within the inland river 
system are a part of the Coast Guard's homeland security mission. These 
activities include: aerial surveillance of activity in and around 
militarily and economically strategic ports, enforcement of waterborne 
fixed and mobile security zones around critical infrastructure, and 
vessel escorts of some certain dangerous cargo (CDC) movements.
    Further, Coast Guard assets operate everyday on the inland rivers. 
For example, our River Tenders operate throughout the inland river 
system performing the Aids to Navigation mission. The personnel that 
operate these assets are local experts who know and operate daily on 
the river system. Additionally, our boarding teams and response boats 
conduct waterside facility inspections, enforce security zones, and 
respond to emerging threats as well. As the maritime ``cop on the 
beat,'' these small boats deter threats and patrol as directed by the 
three Coast Guard Sector Commanders that oversee operations along the 
entire inland river waterway system.

                          MARITIME AIR PATROLS

    Question. How about Maritime Air Patrols?
    Answer. Joint Interagency Task Force--South (JIATF-S) is 
responsible for detection and monitoring operations in the transit 
zone, including Maritime Patrol Aircraft (MPA) requirements and 
scheduling. The Coast Guard, along with other U.S. agencies and foreign 
governments, provides both surface and air assets to support JIATF-S 
detection and monitoring operations.
    The Coast Guard has increased MPA support to the JIATF-S over the 
past several years. In fiscal year 2002, the Coast Guard provided less 
than 3,000 hours; in fiscal year 2005, we provided over 4,000 hours. 
Maintenance problems and availability issues of MPA provided by other 
agencies, particularly P-3s from Customs and Border Patrol (CBP) and 
the United States and Dutch navies, have resulted in an overall 
decrease in MPA available for the counter-drug mission even though 
Coast Guard mission hours for JIATF-S have increased.
    Currently, the Coast Guard has approximately 32,000 total MPA hours 
available for all missions annually, including JIATF-S counter-drug 
support. The Coast Guard's Deepwater plan will provide approximately 
61,000 total MPA hours which meets the current and future MPA 
requirements for the Coast Guard.
    Full funding of the Deepwater project within the fiscal year 2007 
President's Budget Request is critical to closing the MPA gap. The plan 
funds the acquisition of a sixth CASA CN-235 medium range MPA, and 
equipment to support active operations of CASA's 3 through 6. This 
year's request includes, in particular, funding to support the stand up 
of a second CASA-equipped Air Station.

                             GO-FAST BOATS

    Question. The Coast Guard should be commended for their work in 
counter drug operations. In fiscal year 2005, the Coast Guard and 
Customs and Border Protection exceeded results from previous years by 
removing over 338,000 pounds of cocaine from the Caribbean and Eastern 
Pacific Ocean transit zones.
    However, the drug flow problem is far from solved. The Government 
Accountability Office recently reported that the Joint Interagency Task 
Force-South (JIATF-South) ``has detected less than one-third of the 
known and actionable maritime illicit drug movements in the western 
Caribbean Sea and eastern Pacific Ocean.''
    According to the recent GAO report, Coast Guard and CBP officials 
believe that budget constraints and other homeland security priorities 
will result in a reduction of assets in the transit zone.
    I understand that you rely on 33 foot Go-Fast boats, 110 patrol 
boats, and maritime airplanes to interdict drugs. What is the optimal 
number of Go-Fast boats and how does that compare to your current 
fleet?
    Answer. Coast Guard small boats are vital to our maritime border 
security mission, providing a layer of security in our ports and 
coastal regions. Currently, our 33 foot boats (manufactured by SAFE 
Boats International) are primarily used to intercept smuggling vessels 
in selected locations along the U.S. southern border. As important as 
small boats are to Coast Guard missions, they are not the primary 
assets used for counter-drug operations due to their operational 
limitations in the high seas transit zones.
    The Coast Guard's overall counter-drug strategy focuses on the 
transit zone which generally encompasses known transit routes from 
source countries in the Caribbean Sea and eastern Pacific Ocean. Joint 
Interagency Task Force--South (JIATF-S) is responsible for monitoring 
these operations; the Coast Guard provides major cutters (Deepwater), 
airborne use of force helicopters (AUF), maritime patrol aircraft (C-
130/HU-25), and law enforcement detachments (LEDETs) embarked on United 
States and Allied Naval vessels to support these operations. The Coast 
Guard's Deepwater project sets forth the service's way forward in 
achieving the optimal asset mix for the future.

                        DRUG ENFORCEMENT MISSION

    Question. Based on the Coast Guard's latest mission hour report 
provided to Congress, Coast Guard emphasis on drug enforcement 
continues to decrease. Today, the number of hours the Coast Guard 
spends on its drug enforcement mission is approximately 38.5 percent 
less than pre-September 11. Your fiscal year 2007 budget for drug 
interdiction is $18 million below current levels.
    Why is your budget for Drug Interdiction going down in fiscal year 
2007?
    Answer. The challenge of aging cutters and aircraft, coupled with 
the increasing demands of homeland security missions, require the Coast 
Guard to develop an allocation of its resources to ensure the most 
effective mitigation of risk in executing each of its 11 mission 
programs.
    Despite the fact that funding and resource hours allocated to Drug 
Interdiction has gone down, the Coast Guard removed 338,206 pounds of 
cocaine (including nearly 303,662 pounds seized) during fiscal year 
2005, a new record for drug seizures in the maritime environment. While 
actual time spent on the mission has remained relatively static, the 
Coast Guard has been able to improve performance by achieving 
operational efficiencies in excuting its Drug Interdiction operations
    The Coast Guard continues to have unprecedented success in the 
counterdrug mission by pursuing the three principles of its 10-year 
Strategic Counter Drug Plan known as STEEL WEB:
  --Pursuing more tactical, actionable intelligence, then responding 
        with flexible intelligence-driven operations;
  --Leveraging technology by fast tracking new tools and bringing more 
        capable assets to the fight; and
  --International engagement with our counterdrug partner nations, 
        which speeds up the seizure and disposition process and gains 
        U.S. jurisdiction to help feed the intelligence cycle.
    These methods have not only allowed the Coast Guard to be more 
successful in its efforts to deter drug smuggling into the United 
States, but also made these efforts to more efficient.
    As the new Deepwater assets come online, this upward trend in 
seizure success will continue even further, while also allowing for the 
success in other mission areas as well.

                         110 FOOT PATROL BOATS

    Question. The Coast Guard's 110 foot patrol boats, which are used 
to interdict illegal aliens and drugs, are in a ``declining readiness 
spiral,'' according to Commandant Collins. Coast Guard patrol boats are 
operating in theater less today than they were in 1998. Total patrol 
boat hours were only 75,000 in 2004 compared to the 1998 baseline of 
approximately 100,000 hours. Under the Deepwater plan, this gap won't 
be closed until 2012 at the earliest. The Administration's National 
Strategy for Maritime Security calls for a ``significant commitment of 
security resources'' to deal with illegal seaborne immigration.
    The Coast Guard is facing a crisis. The fiscal year 2007 budget 
pushes the development of the Fast Response Cutter to the right. 
Indications are that the five patrol crafts that are on loan from the 
Navy will be returned in 2008. Six 110s are operating in Iraq and may 
not be returned. You said that you could procure an off-the-shelf 
patrol boat for $20-30 million a piece.
    How many are needed in the short-term to close the operational gap?
    Answer. Assuming that any replacement patrol boat was able to 
operate 2,500 hours per year, the Coast Guard would require five such 
boats to close the current gap. If we return the U.S. Navy PC-179s at 
the end of fiscal year 2008 per the current Memorandum of Agreement and 
do not simultaneously gain back the 6 110 foot patrol boats currently 
deployed in support of Operation Iraqi Freedom, we would experience an 
additional loss of 12,500 patrol boat hours.

                       PORT SECURITY PLAN REVIEW

    Question. Secretary Chertoff has stated repeatedly that it is 
important to prevent terrorists and terrorist weapons from entering the 
United States by eliminating threats before they arrive at our borders 
and ports. Yet, there are only 34 Coast Guard employees to review 
foreign port security plans in the 140 countries that conduct maritime 
trade with the United States. The Coast Guard estimates that it will 
take four to five years to audit all 140 foreign port security plans. 
Earlier this week, the Senate Appropriations Committee approved my 
amendment to add $23 million to the fiscal year 2006 Emergency 
Supplemental to hire additional Coast Guard inspectors to review 
domestic and foreign port security plans.
    How will this funding help you accelerate the review of port 
security plans?
    Answer. This funding would result in a temporary increase in the 
level of effort of foreign port security assessments, domestic port 
security assessments, as well as implementing spot inspections of MTSA 
regulated facilities.

            DESIGN REVIEW OF THE FAST RESPONSE CUTTER (FRC)

    Question. The Coast Guard recently made the decision to postpone 
the design review of the Fast Response Cutter (FRC) and review whether 
to continue with the development of the FRC or procure another ship to 
replace the current fleet of patrol boats. Admiral, the Coast Guard has 
already pushed the production schedule for the FRC to the right by one 
year during a time when the capabilities of your existing patrol boats 
are in a declining readiness spiral.
    What implications does postponing the design work on the FRC have 
on the $41.5 million requested in the fiscal year 2007 budget?
    Answer. The Fast Response Cutter (FRC) schedule requires the FRC to 
be ``ready for operations'' in 2009. Continuing with the current ``new 
design'' FRC will likely change the schedule for ``ready for 
operations'' to 2010. That is one of several reasons the Coast Guard is 
currently exploring options (i.e., an off-the-shelf design) to keep the 
FRC on schedule to be ``ready for operations'' in 2009. Implementation 
of this accelerated option is critically dependent on the $41.5 million 
requested in fiscal year 2007 in order to achieve that delivery date.

                      MARITIME DOMESTIC AWARENESS

    Question. The Coast Guard's Deepwater program includes the use of 
Unmanned Aerial Vehicles. UAVs provide a wide-area of surveillance 
capabilities and operate at a fraction of the cost of manned aircraft.
    However, under the current budget plan, the Coast Guard won't 
acquire UAVs until 2016, at the earliest.
    Why is the Coast Guard waiting such a long time to acquire an asset 
that can improve your capability to enhance maritime domain awareness?
    Answer. The Coast Guard plan calls for the acquisition and 
employment of an Unmanned Aerial Vehicle (UAV) well before 2016. The 
Deepwater plan calls for the use of two types of UAVs. The delivery of 
the Vertical Unmanned Aerial Vehicle (VUAV) is scheduled to complete 
Operational Test and Evaluation in December 2011, and will operate off 
the National Security Cutter and the Offshore Patrol Cutter. The second 
unmanned aviation asset, the High Altitude Endurance Unmanned Aerial 
Vehicle (HAEUAV), is scheduled for delivery in 2016. The HAEUAV will be 
a land-based UAV with high altitude and long endurance capabilities.

                     UAVS ALONG THE SOUTHERN BORDER

    Question. In fiscal year 2006, this Subcommittee included funding 
for Customs and Border Protection to utilize UAVs along our southern 
border.
    How would the Coast Guard best use UAVs if funding became 
available?
    Answer. The best use of funds for a UAV in the Deepwater program 
would be to support continuation of the VUAV acquisition which is 
currently in System Design and Development. The goal is to fund the 
VUAV so that it can be completed and utilized as a component of the 
National Security Cutter force package. The concept of operations calls 
for the National Security Cutter to be employed with a Multi-Mission 
Cutter Helicopter (MCH) and VUAV. While the Coast Guard and Customs and 
Border Protection have some similar UAV requirements, a critical 
difference is for the maritime UAV to have a vertical launch and 
recovery capability in order to operate with Coast Guard cutters at 
sea.

                       INSTALLATION OF RECEIVERS

    Question. The Maritime Transportation Security Act, which President 
Bush signed on November 25, 2002, required vessels entering U.S. ports 
to have an Automatic Identification System (AIS) on board by the end of 
2004 that would identify the ship, the size of the ship and the type of 
cargo on the ship when they arrived at U.S. ports.
    Many of our strategic ports still do not have technology to receive 
these signals.
    Your testimony indicates that we need to ``push out our borders.'' 
The AIS system represents an important cog in a layered security 
architecture. Yet, your budget for AIS in fiscal year 2007 is only 
$11.2 million, less than half of the amount provided in fiscal year 
2006. The total acquisition cost to outfit all strategic ports is 
estimated to be $230 to 250 million. Less than a third of the total 
cost has been funded to date.
    According to a March 10, 2005 Coast Guard report on efforts to 
install a shore-based universal Automatic Identification System in 
ports nationwide, full operating capability would be achieved in fiscal 
year 2008. Yet, your fiscal year 2007 budget now indicates that the 
project will not be completed until 2011.
    Why is the Coast Guard moving so slow to install these receivers?
    Answer. The implementation approach and timeline currently being 
planned by the Nationwide Automatic Identification System (NAIS) 
project is based on meeting operational requirements, with due regard 
for technical, cost and other risk factors required for a complete 
command, control, communication, computer and information technology 
project. A three stage incremental implementation is being pursued so 
that maritime security stakeholders will receive useful capability that 
begins to fill in operational gaps more quickly than would be otherwise 
possible. Upon Milestone Two (alternative selection approval from DHS) 
targeted for 4th Quarter, fiscal year 2006, the first increment will 
capitalize on existing preliminary and prototype efforts installed 
during 2005 and 2006 to expand receive only AIS capability (vessel 
tracking) in all critical ports identified in the fiscal year 2007 
budget justification. With the first increment underway, the fiscal 
year 2007 budget request of $11.2 million, along with existing 
unobligated project funding, will be used to award a NAIS contract in 
fiscal year 2007 to initiate design, logistics and deployment of 
follow-on increments that provide a more robust, fully interoperable 
AIS capability with complete coverage of all U.S. waters and 
approaches. Previously reported project completion dates were based on 
preliminary project management estimates. As the final requirements 
have matured and more has been learned, the project schedule was 
updated to reflect realistic timeframes for project completion. 
Currently, full system operating capability is expected to be delivered 
by 2013.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran

                   DEEPWATER RECAPITALIZATION PROGRAM

    Question. What affect would a decrease in funding from the 
President's Budget Request of $934.4 million have on the continuation 
of this recapitalization program?
    Answer. The following Deepwater projects are categories in the 
fiscal year 2007 budget. Each requires full funding to ensure success 
of the recapitalization program. A key to success is the 
synchronization of asset acquisitions to produce ``force packages'' 
connected by a common network. This enables a synergy of operational 
system performance as depicted on the enclosed graphic. If the planned 
synchronization is delayed due to less than full funding in fiscal year 
2007, then the planned capabilities will be have at least a one year 
delay, will be more costly to acquire in the future, and the 
operational performance improvements planned for the near term will be 
lost. More specifically:

------------------------------------------------------------------------
              Budget category                 Inaequate funding impacts
------------------------------------------------------------------------
AIR:
    CASA MPA..............................  Would delay ``mission
                                             ready'' status of
                                             aircraft's 4 & 5, delay
                                             delivery and missionization
                                             of MPA #6; and further
                                             delay two air stations from
                                             receiving post 9/11
                                             capabilities.
    VUAV and MCH (HH-65C).................  Will delay delivery of
                                             assets, limit major cutter
                                             ``force package''
                                             capabilities, limiting
                                             surveillance capability to
                                             that achieved by legacy
                                             surface assets.
    HH-60 projects........................  Any project under funded or
                                             out of sequence will delay
                                             the entire upgrade and
                                             conversion sequence of the
                                             HH-60; this medium range
                                             helicopter is larger and
                                             more capable than the CG HH-
                                             65s.
    AUF projects..........................  Delayed funding for Airborne
                                             Use of Force upgrades means
                                             that Homeland security
                                             patrols will continue to be
                                             conducted largely by
                                             unarmed aircraft that lack
                                             the capability to respond
                                             appropriately on
                                             ``actionable
                                             intelligence''.
    C-130H Conversion projects............  The C-130H will continue to
                                             operate with aging,
                                             obsolete avionics and a
                                             troublesome radar that has
                                             provided degraded
                                             reliability for several
                                             years.
    C-130J Fleet Introduction.............  Will delay delivery of
                                             asset(s) or prevent
                                             ``mission ready'' status--
                                             prolonging the shortage of
                                             maritime patrol aircraft
                                             operating hours.
SURFACE:
    NSC...................................  Each day of delay means NSC
                                             has an opportunity cost of
                                             not surveilling 42,500
                                             square nautical miles
                                             compared to legacy WHEC-
                                             378.\1\
    FRC...................................  Delay/loss of enhanced
                                             operational capabilities of
                                             the patrol boat fleet
                                             required by the post 9/11
                                             requirements.
    Mission Effectiveness Project for       With no Offshore Patrol
     Legacy 210 Foot and 270 Foot.           Cutter (OPC) in the current
                                             budget, 210- and 270-foot
                                             cutters have to be extended
                                             until OPC is delivered.
                                             Inadequate funding will
                                             likely result in decreased
                                             legacy asset operational
                                             availability.
    Cutter Small Boats (Long Range          Small boats are part of the
     Interceptor and Short Range             Cutter ``force package''
     Prosecutor)..                           providing intercept and
                                             boarding capability from
                                             the parent cutter. Delayed
                                             funding decreases ``force
                                             package'' operating area.
    C4ISR.................................  Will delay delivery of
                                             assets--some components are
                                             essential to asset
                                             operation.
                                            C4ISR is the key to being
                                             AWARE in the maritime
                                             region. Reduced awareness
                                             increases the Nation's risk
                                             for possible attacks from
                                             terrorists and more
                                             criminal activities.
Logistics.................................  Unable to operate as
                                             designed will mean higher
                                             annual operating costs.
                                            Readiness will be lower.
                                            Suboptimal ``homeports'' due
                                             to lack of shore
                                             facilities; forcing use of
                                             ``Ports of Convenience''.
Systems Engineering & Integration.........  Higher risk for lack of
                                             synchronization of
                                             Deepwater assets . . . will
                                             not operate together.
                                            Higher risk that optimal
                                             contractor testing will not
                                             be conducted. Uncertain if
                                             OT&E will detect . . .
                                             increased risk of failure
                                             during future operations.
Program Management........................  Unable to accomplish
                                             inherently government work
                                             necessary for success.
                                            Increased risk of failure
                                             during operation and delay
                                             in deploying due to
                                             insufficient planning.
------------------------------------------------------------------------
\1\ All flight deck capable cutters will benefit from VUAV/MCH force
  package surveillance capabilities.

    The graphic below illustrates the synergistic linkages between 
assets in the Deepwater system highlighting how reduced funding in any 
one area reduces overall system performance outcomes. The full success 
of the major projects is dependent on the assets in these budget 
categories being fully funded.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. In fiscal year 2006, Congress provided $933.1 million for 
the Coast Guard's Deepwater recapitalization program. The President's 
fiscal year 2007 Budget Request proposes $934.4 million for the 
Deepwater program.
    How important is full funding of the President's Request to the 
continuation of this recapitalization program?
    Answer. It is critically important that full funding for the 
Deepwater recapitalization program be provided. Any reduction will 
cause a delay in one or more assets or systems that the Coast Guard 
needs to accomplish the responsibilities that DHS expects. Reduced 
funding will mean reduced readiness; our Nation needs a mission-ready 
Coast Guard.

                  RESPONSE TO CONGRESSIONAL DIRECTION

    Question. How will the Department and the Coast Guard address 
Congress' frustration with the Coast Guard's poor responsiveness to 
congressional direction?
    Answer. The Coast Guard has internal processes in place to track 
all Congressional deliverables, to include reports, Questions for the 
Record (QFRs), Questions and Answers (Q&As) and all other direction 
from Congressional staffs, ensuring all are responded to in a timely 
and effective manner. In addition, the Coast Guard and DHS have 
condensed their turnaround times allowed for all inquiries to further 
ensure timely responses.
    One example as a result of the Coast Guard's improvement in this 
arena was in the submission of the fiscal year 2007 President's 
request--four Congressional Reports (Deepwater Implementation Plan 
Review, Operational Gap Analysis, Patrol Boat Availability and Report 
on Maritime Security and Safety Teams) were submitted in concert with 
the President's request--a significant effort to execute, but done 
successfully as a result of greater cooperation and efficiency between 
DHS, OMB and the Coast Guard.
    Other examples of the Coast Guard's efforts to alleviate Congress' 
concerns include more granularity in the fiscal year 2007 budget 
submission (the fiscal year 2007 request grew by over 175 pages from 
the fiscal year 2006 submission, providing more justification on usable 
segments within AC&I projects, greater detail on new initiatives such 
as the National Capital Region Air Defense mission, and so on).
    The Coast Guard has also been more proactive in providing status 
reports of continuing initiatives through Congressional Staff 
briefings, substantial interaction between Congressional staffs and the 
Coast Guard's own Congressional Affairs staffs, and sponsorship in 
field unit visits.

                      STATUS OF HH-65 HELICOPTERS

    Question. Could you update the committee on the progress of the re-
engining of the 95 HH-65 helicopters?
    Answer. Twenty-nine re-engined HH-65s have been delivered as of 
March 2006; 5 each to CG Air Stations Atlantic City, Savannah and New 
Orleans; 3 to Air Station San Francisco; 8 of 9 to Air Station Miami; 1 
to Aviation Training Center Mobile; 1 to Air Station Los Angeles; and 1 
to NAVAIR.
    Completion date of the 84 operational HH-65s remains June 2007. 
This date was changed from the earlier projected delivery date of 
February 2007 primarily due to extraordinary Hurricane rescue and 
relief efforts in 2005 that caused unforeseen wear and tear on our 
rotary wing aircraft. Aircraft inducted for the re-engining project 
have needed additional depot-level maintenance caused by this increased 
wear and tear. The remaining 11 non-operational aircraft (aircraft on 
the programmed depot maintenance line at Coast Guard Aircraft Repair & 
Supply Center, Elizabeth City, NC) are scheduled to be completed by 
November 2007.

                         CONCLUSION OF HEARING

    Senator Stevens. This will terminate the hearing.
    [Whereupon, at 11:15 a.m., Thursday, April 6, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
